<html>
<title> - H.R. 523, DOUGLAS COUNTY, WASHINGTON, PUBLIC UTILITY DISTRICT CONVEYANCE ACT; AND H.R. 1011, VIRGINIA RIDGE AND VALLEY ACT OF 2007</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
    H.R. 523, DOUGLAS COUNTY, WASHINGTON, PUBLIC UTILITY DISTRICT 
 CONVEYANCE ACT; AND H.R. 1011, VIRGINIA RIDGE AND VALLEY ACT OF 2007

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS
                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                         Thursday, May 10, 2007

                               __________

                           Serial No. 110-25

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov


                    U.S. GOVERNMENT PRINTING OFFICE
35-305                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON NATURAL RESOURCES

               NICK J. RAHALL II, West Virginia, Chairman
              DON YOUNG, Alaska, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Wayne T. Gilchrest, Maryland
Solomon P. Ortiz, Texas              Ken Calvert, California
Frank Pallone, Jr., New Jersey       Chris Cannon, Utah
Donna M. Christensen, Virgin         Thomas G. Tancredo, Colorado
    Islands                          Jeff Flake, Arizona
Grace F. Napolitano, California      Rick Renzi, Arizona
Rush D. Holt, New Jersey             Stevan Pearce, New Mexico
Raul M. Grijalva, Arizona            Henry E. Brown, Jr., South 
Madeleine Z. Bordallo, Guam              Carolina
Jim Costa, California                Luis G. Fortuno, Puerto Rico
Dan Boren, Oklahoma                  Cathy McMorris Rodgers, Washington
John P. Sarbanes, Maryland           Bobby Jindal, Louisiana
George Miller, California            Louie Gohmert, Texas
Edward J. Markey, Massachusetts      Tom Cole, Oklahoma
Peter A. DeFazio, Oregon             Rob Bishop, Utah
Maurice D. Hinchey, New York         Bill Shuster, Pennsylvania
Patrick J. Kennedy, Rhode Island     Dean Heller, Nevada
Ron Kind, Wisconsin                  Bill Sali, Idaho
Lois Capps, California               Doug Lamborn, Colorado
Jay Inslee, Washington
Mark Udall, Colorado
Joe Baca, California
Hilda L. Solis, California
Stephanie Herseth Sandlin, South 
    Dakota
Heath Shuler, North Carolina

                     James H. Zoia, Chief of Staff
                   Jeffrey P. Petrich, Chief Counsel
                 Lloyd Jones, Republican Staff Director
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                  RAUL M. GRIJALVA, Arizona, Chairman
              ROB BISHOP, Utah, Ranking Republican Member

 Dale E. Kildee, Michigan            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Chris Cannon, Utah
Donna M. Christensen, Virgin         Thomas G. Tancredo, Colorado
    Islands                          Jeff Flake, Arizona
Rush D. Holt, New Jersey             Rick Renzi, Arizona
Dan Boren, Oklahoma                  Stevan Pearce, New Mexico
John P. Sarbanes, Maryland           Henry E. Brown, Jr., South 
Peter A. DeFazio, Oregon                 Carolina
Maurice D. Hinchey, New York         Louie Gohmert, Texas
Ron Kind, Wisconsin                  Tom Cole, Oklahoma
Lois Capps, California               Dean Heller, Nevada
Jay Inslee, Washington               Bill Sali, Idaho
Mark Udall, Colorado                 Doug Lamborn, Colorado
Stephanie Herseth Sandlin, South     Don Young, Alaska, ex officio
    Dakota
Heath Shuler, North Carolina
Nick J. Rahall II, West Virginia, 
    ex officio
                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, May 10, 2007...........................     1

Statement of Members:
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     2
    Sali, Hon. Bill, a Representative in Congress from the State 
      of Idaho...................................................     3

Statement of Witnesses:
    Boucher, Hon. Rick, a Representative in Congress from the 
      State of Virginia..........................................     4
    Davenport, Tom R., Business Manager, Mt. Rogers Outfitters, 
      Damascus, Virginia.........................................    21
        Prepared statement on H.R. 1011..........................    23
    Dobbins, William C., General Manager, Public Utility District 
      No. 1 of Douglas County, Washington........................    38
        Prepared statement on H.R. 523...........................    39
    Ferguson, Mike, Assistant Director, Business and Fiscal 
      Resources, Bureau of Land Management, U.S. Department of 
      the Interior...............................................     9
        Prepared statement on H.R. 523...........................    10
    Gray, Gerald L., Clintwood, Virginia.........................    27
        Prepared statement on H.R. 1011..........................    28
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     5
        Prepared statement on H.R. 523...........................     6
    Henson, Steve, Executive Director, Southern Appalachian 
      Multiple-Use Council, Clyde, North Carolina................    30
        Prepared statement on H.R. 1011..........................    32
    Holtrop, Joel, Deputy Chief, National Forest System, Forest 
      Service, U.S. Department of Agriculture....................    11
        Prepared statement on H.R. 1011..........................    13
    Muffo, John A., Supervisor, Montgomery County Board of 
      Supervisors, Blacksburg, Virginia..........................    24
        Prepared statement on H.R. 1011..........................    26
    Seebach, John C., National Coordinator, American Rivers, 
      Hydropower Reform Coalition, Washington, D.C...............    46
        Prepared statement on H.R. 523...........................    48


   LEGISLATIVE HEARING ON H.R. 523, TO REQUIRE THE SECRETARY OF THE 
  INTERIOR TO CONVEY CERTAIN PUBLIC LAND LOCATED WHOLLY OR PARTIALLY 
  WITHIN THE BOUNDARIES OF THE WELLS HYDROELECTRIC PROJECT OF PUBLIC 
 UTILITY DISTRICT NO. 1 OF DOUGLAS COUNTY, WASHINGTON, TO THE UTILITY 
 DISTRICT. (DOUGLAS COUNTY, WASHINGTON, PUD CONVEYANCE ACT); AND H.R. 
1011, TO DESIGNATE ADDITIONAL NATIONAL FOREST SYSTEM LANDS IN THE STATE 
OF VIRGINIA AS WILDERNESS OR A WILDERNESS STUDY AREA, TO DESIGNATE THE 
 KIMBERLING CREEK POTENTIAL WILDERNESS AREA FOR EVENTUAL INCORPORATION 
IN THE KIMBERLING CREEK WILDERNESS, TO ESTABLISH THE SENG MOUNTAIN AND 
BEAR CREEK SCENIC AREAS, TO PROVIDE FOR THE DEVELOPMENT OF TRAIL PLANS 
  FOR THE WILDERNESS AREAS AND SCENIC AREAS, AND FOR OTHER PURPOSES. 
                (VIRGINIA RIDGE AND VALLEY ACT OF 2007).

                              ----------                              


                         Thursday, May 10, 2007

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:03 a.m. in 
Room 1334, Longworth House Office Building, Hon. Raul M. 
Grijalva [Chairman of the Subcommittee] presiding.
    Present: Grijalva, Bishop, Sarbanes, Shuler, Sali, Lamborn.

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Let me call to order the Subcommittee on 
National Parks, Forests, and Public Lands for this hearing 
today.
    I am pleased to welcome my colleagues, and our 
distinguished panelists today, to today's Subcommittee hearing. 
In particular, I want to thank those witnesses who have 
traveled to Washington to join us.
    Today we are meeting to consider two measures: H.R. 523, 
the Douglas County Public Utility District Conveyance Act, and 
H.R. 1011, the Virginia Ridge and Valley Act.
    H.R. 523 would authorize the conveyance of approximately 
622 acres of land currently owned by the Bureau of Land 
Management to the Public Utility District in Douglas County, in 
Washington State. The Public Utility District is in the early 
stages of the relicensing process before the Federal Energy 
Regulatory Commission, and they feel that consolidating the 
ownership of land within the boundary of the project will be 
beneficial.
    However, concerns regarding the effect of selling this land 
on some of the natural resources in the area has been raised. 
Input from today's witnesses will be helpful in assessing those 
concerns.
    Our second bill, H.R. 1011, the Virginia Ridge and Valley 
Act, was introduced by our colleague, Rep. Boucher, and we 
welcome him here today. H.R. 1011 designates nearly 43,000 
acres in the Jefferson National Forest in southwestern Virginia 
as wilderness, and nearly 12,000 acres as national scenic 
areas.
    H.R. 1011 is a strong bipartisan measure that is 
cosponsored by the five other Representatives from Virginia. 
The Senate companion measure is sponsored by Sen. Warner and 
Sen. Webb.
    Furthermore, H.R. 1011 has broad support from other 
leaders, such as Gov. Tim Kaine, four County Boards of 
Supervisors, local businesses, state organizations, and faith 
groups.
    I am pleased that we will hear from Rep. Boucher on our 
first panel. I understand the measure before us today 
represents several years of fine-tuning to iron out concerns 
with previous proposals.
    Each of the areas within H.R. 1011 are either recommended 
wilderness area, areas in the 2004 Jefferson National Forest 
Plan, or have been endorsed by the local Board of Supervisors 
of a relevant county.
    Some may argue that the wilderness legislation should be 
bound to the forest plan. While we value the Forest Service's 
input, the Wilderness Act clearly gives Congress the sole 
authority and responsibility to designate wilderness.
    There are also those who have argued that wilderness 
designation is in conflict with the multiple-use mandate of the 
National Forest System, and therefore oppose any designation of 
wilderness. Wilderness is a multi-use resource, a fact Congress 
affirmed in the Wilderness Act, and as well as the Multi-Use 
Sustained Yield Act.
    Once again, we look forward to our witnesses' insights and 
thank them for their effort. And I would like to recognize the 
Ranking Member, Mr. Sali, for any opening statements he may 
have.

 STATEMENT OF THE HON. BILL SALI, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF IDAHO

    Mr. Sali. Thank you, Chairman Grijalva. I would like to 
welcome Representatives Rick Boucher and Doc Hastings to the 
hearing today.
    Rep. Hastings' bill I find to be a common-sense effort that 
would convey 382 acres of BLM land at fair market value to the 
public utility district that is referenced. Due to the 
isolation of these parcels, the BLM has difficulty managing 
them, and has left management up to this public utility 
district. That district has a stellar environmental record and 
will continue to use this land to provide recreational 
opportunities to the surrounding communities.
    The public utility district will cover all costs, and this 
conveyance will have no determination on its ongoing hydropower 
licensing proceedings.
    I do have some concerns, though, with Rep. Boucher's bill, 
H.R. 1011. It would designate 13,856 more acres of wilderness, 
more than the 25,200 acres that were recommended by the Forest 
Service Forest Plan. Development of the recently revised 
Jefferson National Forest Plan consumed 11 years, millions of 
dollars, and extensive public involvement that included over 
3,000 members of the public. It was developed by career civil 
servants, who are among the best and brightest of our 
professional land managers.
    Unfortunately, this bill ignores many of the 
recommendations of those professionals. Several of the proposed 
wilderness areas in H.R. 1011 are currently managed to maintain 
threatened, endangered, and sensitive species.
    The Forest Service needs to use mechanized equipment to 
manage these lands to comply with the ESA. H.R. 1011 would take 
away these prudent management options.
    This bill also ties the hands of professional land managers 
who need to perform proactive treatments that could reduce the 
risk of wildfires.
    In my state, there are over 4 million acres of designated 
wilderness. A lot of it looks like the picture that is on the 
screen. This is wilderness that meets the 1964 Wilderness Act 
standards of land that is pristine and untrammeled by man.
    H.R. 1011 would designate thousands of acres that have 
roads, utility corridors, towers, mountain biking areas. Some 
areas, like the Brush Mountain proposal, are so surrounded by 
development that the Forest Service is concerned about fire 
spreading quickly to highly developed housing areas in the city 
of Blacksburg, Virginia, home of Virginia Tech.
    I will conclude by saying that recreation is a valuable use 
of the National Forest System, along with all the other uses. 
As recreation pressures increase on the nation's public lands, 
we should be creating more opportunities for the average 
visitor, not less.
    This bill reduces recreational opportunities for 99 percent 
of visitors, while enhancing opportunities for just 1 percent. 
As baby boomers age and gain a few pounds, Congress needs to 
make our Federal lands more user-friendly to these folks. And 
designated wilderness, as we find in this bill, takes those 
recreational opportunities away from these folks.
    Thank you, Mr. Chairman.
    Mr. Grijalva. Thank you, Mr. Sali. And for all the panels, 
we limit the oral testimony to five minutes. Without objection, 
the statements of all the witnesses today will be made part of 
the record in its entirety.
    And with that, let me turn to the first panel, our 
distinguished colleagues, and begin with Congressman Boucher on 
H.R. 1011. Sir?

 STATEMENT OF HON. RICK BOUCHER, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF VIRGINIA

    Mr. Boucher. Thank you very much, Mr. Chairman and Members 
of the Subcommittee. It is a privilege for me to have the 
opportunity this morning to testify before you in support of 
bipartisan wilderness legislation, which we have introduced for 
the State of Virginia.
    All of the proposed wilderness areas and wilderness study 
areas and national scenic areas that would be designated in 
this legislation reside within the Congressional District that 
I have the privilege of representing. But I am pleased to be 
joined in cosponsorship of the measure by a bipartisan majority 
of Virginia's House delegation. A majority of our entire 
delegation is cosponsoring, including our Democratic colleagues 
Bobby Scott and Jim Moran, and Republican colleagues Frank 
Wolf, Tom Davis, and JoAnn Davis.
    An identical bill has been introduced in the Senate, as the 
Chairman indicated, with the chief sponsor Senator John Warner, 
and cosponsored by our other United States Senator from 
Virginia, Jim Webb. And we have worked very closely with 
Senators Warner and Webb in the construction of the legislation 
that we are presenting to you this morning.
    The bill designates 43,000 acres of wilderness or 
wilderness study areas, and designates 12,000 acres of national 
scenic areas. The bill has been constructed over a number of 
years in a very careful process that involves conservation 
organizations, civic organizations, faith-based organizations, 
business owners, local governments, and scores of interested 
citizens. It has been broadly endorsed by those with whom we 
have worked in order to construct it.
    It carries the recommendation for wilderness designation of 
either the U.S. Forest Service, as reflected in the management 
plan, or of the local governing body for each county in which a 
proposed wilderness area is situated. And I would note that 
testifying on today's panel of witnesses is a representative of 
the local governing body of Montgomery County, where the town 
of Blacksburg and Virginia Tech is located, endorsing the 
passage of the bill.
    I have attached to my proposed written statement eight 
pages containing a lengthy list of endorsing organizations and 
individuals. I would note that the bill has been endorsed by 
Virginia's Governor Tim Kaine, and in fact is the only 
wilderness bill, to our knowledge, to be endorsed by the 
International Mountain Bicycling Association.
    All of the acreages protected in the bill have unique 
features that merit preservation. The Appalachian Trail 
traverses a number of these wilderness areas. Most of the 
terrain is truly rugged, and is not suitable for timber 
extraction.
    I believe, and the local governments endorsing the bill 
believe, that these new protected areas will place a broad 
economic benefit to the advantage of our localities. Tourism is 
our single fastest-growing industry, and the outdoor experience 
that we offer in our region will clearly be enhanced by the 
passage of this measure.
    I would note, Mr. Chairman, that while we will not rely on 
wilderness alone to attract large numbers of travelers, we know 
from the experience that we have had with our existing 
wilderness areas that the wilderness experience is a valuable 
part of the outdoor recreation component of our tourism 
development strategy.
    The areas we propose to designate for protection will 
provide solitude and superb wilderness recreational 
opportunities for hiking, for hunting, for fishing, for 
camping, bird watching, backpacking, and horseback riding.
    Thousands of people travel to our region each year to enjoy 
the outdoor experience in the Jefferson National Forest, and 
the passage of this legislation will clearly enhance that 
outdoor experience.
    Senator Warner and I, over the last two years, have worked 
extensively with the Forest Service and its very capable 
representatives in attempting to address concerns that the 
Forest Service has expressed with the legislation. In response 
to that expression of concerns by the Forest Service, we have 
made a number of modifications in the bill that is pending 
before you today, from the version that we introduced during 
the course of the last Congress. And we truly believe that we 
have addressed the principal concerns that the Forest Service 
has presented to us.
    Today the Forest Service may express further reservations 
about the legislation, and I ask that a point-by-point answer 
that I have prepared to these reservations be received as a 
part of this testimony, and be made a part of your record of 
proceedings today.
    Mr. Chairman, I thank the committee for conducting today's 
hearing, and I very much hope it will be the privilege and 
pleasure of this committee to report our legislation to the 
Floor. And I will look forward to any questions that you care 
to ask.
    Thank you, Mr. Chairman.
    Mr. Grijalva. Thank you. Thank you, sir.
    With that, let me turn to Congressman Hastings with regard 
to H.R. 523. Sir?

    STATEMENT OF THE HON. DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Hastings. Thank you, Mr. Chairman and Mr. Ranking 
Member, for holding this important hearing on pending public 
land legislation, including my bill, H.R. 523, a bill that 
would convey certain BLM properties to the Douglas County 
Public Utility District in central Washington, in my district.
    The Douglas County PUD operates the Wells Hydropower 
Project on the Columbia River in north-central Washington. As a 
Federal project license holder, the PUD manages the Wells Dam 
and the associated reservoir for multiple purposes, including 
power generation, fish and wildlife protection, and recreation.
    Almost all of the land encompassing the project area is 
owned by the PUD, with the exception of several small BLM land 
holdings, and that is what this bill is about.
    I believe a higher level of resource and recreation 
management can be achieved on these lands if they are under PUD 
ownership. This would enable the PUD to manage the project 
across the landscape, and would allow the BLM to concentrate 
its limited resources elsewhere in the state, where there are 
large contiguous blocks of BLM land.
    The Douglas PUD has a stellar reputation as a steward of 
the environment. They worked diligently with Federal and state 
agencies, tribal governments and environmental groups, to 
develop a model habitat conservation plan for salmon and 
steelhead.
    I have to tell you, Mr. Chairman and Members of the 
committee, this was a very difficult thing to accomplish, and 
it took many, many years to realize. In addition, the PUD 
rigorously protects other forms of wildlife found in the area, 
and provides for public access whenever possible. For all 
intents and purposes, they are the day-to-day land managers in 
this project area.
    For those of you that are from areas of the country with 
public power entities, I would just note that the Douglas PUD 
is a public agency under Washington State law, with elected 
commissioners who meet regularly in public meetings. This 
legislation then would facilitate the conveyance of land from 
one public agency to another. And for you Members of the 
Subcommittee who were at this hearing on this issue last year, 
I want to thank you for unanimously supporting this bill last 
year, both in committee and later on the House Floor.
    I regret, and I am sure that you regret, that a number of 
common-sense land bills had to be reintroduced this year 
because they were ultimately not passed by the other body. I 
guess that seems to be something that we historically have to 
go through every year, and this is one of those pieces of 
legislation.
    However, I hope that you will approve this legislation 
again, and that it will move quickly through the House to the 
other body for their consideration.
    And again, I want to thank you and Members of this 
committee for holding this hearing on this legislation. I urge 
you once again to favorably act on this bill. And I am willing 
to stand for any questions that you may want to ask.
    Thank you very much.
    [The prepared statement of Mr. Hastings follows:]

 Statement of The Honorable Doc Hastings, a Representative in Congress 
 from the State of Washington, on H.R. 523, Douglas County, Washington 
                            Land Conveyance

    Mr. Chairman and Ranking Member:
    Thank you for holding this important hearing on pending public 
lands legislation, including my bill--H.R. 523--that would convey 
certain BLM properties to the Douglas County Public Utility District.
    The Douglas County PUD operates the Wells Hydropower Project on the 
Columbia River, in North Central Washington. As the federal project 
license holder, the PUD manages the Wells dam and the associated 
reservoir for multiple purposes, including power generation, fish and 
wildlife protection, and recreation. Almost all of the land 
encompassing the project area is owned by the PUD, with the exception 
of several small BLM holdings.
    I believe a higher level of resource and recreation management can 
be achieved on these lands if they are under PUD ownership. This would 
enable the PUD to manage the project across the landscape, and it would 
allow the BLM to concentrate its limited resources elsewhere in the 
state where there are large contiguous blocks of BLM land.
    The Douglas PUD has a stellar reputation as a steward of the 
environment. They worked diligently with federal and state agencies, 
tribal governments, and environmental groups to develop a model Habitat 
Conservation Plan for salmon and steelhead. This was a very difficult 
thing to accomplish and took many years to realize. In addition, the 
PUD rigorously protects other forms of wildlife found in the area and 
provides for public access wherever possible. For all intents and 
purposes, they are the day to day land managers of the project area.
    For those of you from areas of the country without public power 
entities, I would note that the Douglas PUD is a public agency under 
Washington state law with elected commissioners who meet regularly in 
public meetings. This legislation would facilitate the conveyance of 
land from one public agency to another.
    For members of the Subcommittee who were at the hearing on this 
issue last year, I thank you for unanimously supporting this bill, both 
in Committee and later on the House floor. I regret that a number of 
common sense lands bills had to be reintroduced this year because they 
were ultimately not passed by the other body. However, I hope that you 
will approve this legislation again and that it will be moved quickly 
to the full House for further consideration.
    Again Mr. Chairman, I thank you and the members of the Subcommittee 
for holding a hearing on this legislation today. I urge the favorable 
consideration of this bill and look forward to working with you and 
your staff on this issue.
                                 ______
                                 
    Mr. Grijalva. Thank you. Let me extend appreciation and 
thanks to the gentlemen for your testimony.
    Before we begin any questions the colleagues on the 
committee might have, let me indicate to you, both of you, that 
you are welcome to join us at the dais and participate in the 
rest of the hearing as we go through the other panels.
    With that, I have no questions for the Congressman. And Mr. 
Sali?
    Mr. Sali. Congressman Boucher, I am sorry, I note that you 
chair the Subcommittee on Energy and Air Quality, and that you 
also represent a district that is rich in coal reserves.
    Under the Clean Air Act, Congressionally delegated 
wilderness areas that are over 5,000 acres are eligible for 
Class I air designations, and that would apparently prohibit 
any new industrial emissions in the areas.
    With this in mind, would the enactment of your bill affect 
any future development, industrially, in the area? Or should we 
address this issue in your bill?
    Mr. Boucher. Well, I thank the gentleman for that question. 
My understanding of the state of the law--and this is based on 
some of those same questions having been posed more than 20 
years ago, when we added Virginia's first acreages to our 
wilderness inventory--is that it would take an Act of Congress 
to make any designations of Class I status for wilderness areas 
which today are Class II. And all of the wilderness areas that 
we added in the 1980s are Class II. I think there is one 
wilderness area--as memory serves, it is the James River Face 
Wilderness Area, that is actually, I believe, in Representative 
Goodlatte's district--which is Class I. But it is Class I by 
virtue of having been so designated at the time the very first 
wilderness legislation was passed many decades ago.
    Everything else that we have in Virginia is Class II. It is 
my intention that everything that we are adding here be Class 
II. I assumed the Subcommittee that I chair would have some 
jurisdiction over any effort to amend the Clean Air Act in 
order to elevate the status to Class I, but that simply is not 
going to happen.
    But if the gentleman would be more comfortable with a 
provision in this bill that would address that question, I 
would not oppose it. I would leave it to the Chair and the 
Ranking Member to decide whether that might invoke the 
jurisdiction of another committee--mine, namely. And while I 
can assure you that I would endorse it in that committee----
    [Laughter.]
    Mr. Boucher.--having it be referred to that committee might 
slow down the progress of the bill through the House, and that 
is an event I would not welcome.
    But let me just give assurance to the gentleman that there 
is no intention here that any of these areas ever become Class 
I. It would take a further Act of Congress for them to become 
Class I, and that simply is not going to happen. And certainly 
not through the committee that I chair.
    Mr. Sali. In the West we have a lot of public lands, and in 
my state, and awful lot of wilderness. We consider recreation a 
very valuable asset. And I guess it seems like the idea here 
should be to create more recreational opportunities on public 
lands, as we determine what designations we will give them.
    It looks to me like this bill will reduce recreational 
opportunities for probably about 99 percent of visitors, and 
the trade-off being it will enhance those recreational 
opportunities for about 1 percent.
    First of all, am I correct in that assessment? Second of 
all, if you would describe the recreational opportunities that 
will be available for the lands that are the subject of this 
bill? Who can use it, those kinds of things.
    Mr. Boucher. I would say to the gentleman that I do not 
agree with the assessment that passing this bill would broadly 
restrict recreational opportunities. In fact, I think exactly 
the opposite would be the case, because the wilderness areas 
would prove attractive to people who are in search of solitude, 
a remote experience for horseback riding, backpacking, camping, 
hunting, fishing, winter sports of various kinds, including 
snowshoeing and cross-country skiing, mountain bicycling.
    And I would note, as I said in my opening statement, that 
this is the only wilderness bill, to my knowledge, that has 
ever been endorsed by the International Mountain Bicycling 
Association. And we worked very closely with the International 
Bicycling Association as we wrote this bill. We have assured 
bicycling access to terrain that this organization very much 
anticipates being made wilderness.
    In fact, representatives of that organization told us that 
there are thousands of people who enjoy mountain bicycling, who 
are traveling through Virginia at the present time trying to 
get to other areas where there is better terrain access and 
more opportunity to engage in bicycling. And because of the 
trail construction and management functions that are directed 
in this legislation, the trails in our areas would be upgraded 
and made more appropriate for mountain bicycling; and that, in 
turn, would draw a large number of additional mountain 
bicyclists to our region.
    So I truly believe that when this bill becomes law, we are 
going to see an increase, rather than a decrease, of outdoor 
recreational opportunities.
    Mr. Sali. Can I approach this just a little differently? I 
have a bad back, and I am not likely to hike very far, and I am 
not likely to bicycle very far. For people that are in my 
circumstance, if we pass this bill, and you know, for those of 
us who need to rely on motorized vehicles, what kind of 
recreational opportunities will be precluded from the land that 
are included in this bill?
    Mr. Boucher. Well, the first thing I would say to the 
gentleman is that he really should come to my Congressional 
District, and I would be happy to help him make some 
reservations in order to travel there, because we offer superb 
outdoor recreational opportunities in our stretches of national 
forest. I have some counties where the national forest is as 
much as 65 percent of the entire land mass of the county. And 
these are areas where the outdoor recreational opportunities 
available to anyone, with motorized access or non-motorized 
access, are ample.
    We are declaring a relatively small percentage of the acres 
in the national forest to be wilderness. And yes, it is true 
that there will be some roads that exist within these areas 
that will not be useable for motorized traffic once they are 
declared to be wilderness. But given the tremendous acreages 
where we do have that motorized access, that will remain in 
multiple use, which constitute well more than 90 percent of the 
entire national forest, there is no shortage of recreational 
opportunity for people who require motorized access.
    And I think the gentleman would find a vacation in my 
district to be very satisfying and enjoyable, and I hope you 
will bring the whole family.
    Mr. Grijalva. Thank you, Mr. Sali. I turn to my colleague, 
Mr. Sarbanes. Any questions?
    Mr. Sarbanes. Not at this time.
    Mr. Grijalva. Thank you, sir. Mr. Lamborn?
    Mr. Lamborn. Thank you, Mr. Chairman, but I have no 
questions, either.
    Mr. Grijalva. Thank you. And again, let me thank the 
witnesses, and you are welcome to join us and participate in 
the remainder of the hearing.
    Mr. Hastings. Thank you.
    Mr. Boucher. Thank you, Mr. Chairman.
    Mr. Grijalva. Let me welcome the second panel, if we can 
continue with that part of the hearing.
    Let me welcome the panel and begin, if I may, with Mr. 
Ferguson from the Bureau of Land Management. Sir, your 
testimony.

 STATEMENT OF MIKE FERGUSON, ASSISTANT DIRECTOR, BUSINESS AND 
          FISCAL RESOURCES, BUREAU OF LAND MANAGEMENT

    Mr. Ferguson. Thank you, Mr. Chairman. Thank you for the 
opportunity to testify on H.R. 523. This legislation directs 
the Secretary of the Interior to convey certain public lands 
located wholly or partially within the boundaries of the Wells 
Dam Hydroelectric Project to Public Utility District----
    Mr. Grijalva. If you could turn on the microphone.
    Mr. Ferguson. Is that better? All right. Thank you, Mr. 
Chairman, and thank you for the opportunity to testify on H.R. 
523. This legislation directs the Secretary of the Interior to 
convey certain public lands located wholly or partially within 
the boundaries of the Wells Dam Hydroelectric Project to the 
Public Utility District No. 1 in Douglas County, Washington.
    The BLM supports this conveyance. When we testified on 
similar legislation in the previous Congress, we raised several 
concerns. We greatly appreciate the work by Representative 
Hastings' staff and the Subcommittee staff to address our 
concerns, as reflected in the text of H.R. 523. We look forward 
to working with the bill's sponsor and the committee on a few 
key concerns that are still outstanding.
    Since 1998, the public utility district has expressed a 
strong desire to purchase all BLM-managed public lands within 
the project boundaries. After the previous Congressional 
hearing, we worked with the utility district to identify 
precisely which lands it wants to acquire. We also worked with 
the bill's sponsor to develop a map that correctly identifies 
these lands.
    Some of the public lands the utility district wants are 
located within the boundaries of the project. These were 
reserved for power site purposes by the order of the Federal 
Power Commission. Some of the lands lie outside the designated 
project boundary.
    We encourage the sponsor and the committee to provide 
safeguards to protect the known resource values on these lands, 
which include bald eagle roosts and approximately two miles of 
Columbia River shoreline currently opened to the public.
    Section 3[f] of H.R. 523 directs that proceeds from the 
sales be deposited into the working capital fund of BLM. We 
strongly recommend instead that these funds be deposited into 
the Federal Land Disposal account, established by the Federal 
Land Transaction Facilitation Act.
    Thank you for the opportunity to testify. I will be glad to 
answer any questions.
    [The prepared statement of Mr. Ferguson follows:]

  Statement of Mike Ferguson, Assistant Director, Business and Fiscal 
Resources, Bureau of Land Management, U.S. Department of the Interior, 
      on H.R. 523, Douglas County, Washington, PUD Conveyance Act

    Thank you for the opportunity to testify on H.R. 523. This 
legislation directs the Secretary of the Interior to convey certain 
public lands located wholly or partially within the boundaries of the 
Wells Dam Hydroelectric Project [Federal Energy Regulatory Commission 
Project No. 2149-19795] (Project) to Public Utility District No. 1 of 
Douglas County, WA, (PUD). The BLM supports this conveyance. During 
consideration of similar legislation in the 109th Congress (H.R. 4789), 
we raised several concerns. The BLM greatly appreciates the work by 
Rep. Hastings' staff and Subcommittee staff to address our concerns, as 
the text of H.R. 523 reflects. We look forward to working with the 
bill's sponsor and the Committee on the few key concerns still 
outstanding.
    Since 1998, the PUD has expressed a strong desire to purchase all 
BLM-managed public lands within the Project boundaries. During the 
109th Congress, we worked with the PUD to identify precisely which 
public lands it wishes to acquire, and we worked with the bill's 
sponsor to develop a map that correctly identifies these lands. Some of 
the public lands the PUD wishes to acquire are located within the 
boundaries of the Project. These were reserved for power site purposes 
by order of the Federal Power Commission (FPC Order dated July 12, 
1962, for Power Project No. 2149). Some of the lands requested by the 
PUD lie outside (but contiguous to) the designated project boundary. We 
encourage the sponsor and the Committee to provide safeguards to 
protect the known resource values on these lands, which include Bald 
Eagle roosts and approximately two miles of Columbia River shoreline 
currently open to the public.
    Section 3(f) of the legislation directs that the proceeds from the 
sales be deposited into the ``working capital'' funds of the BLM. We 
strongly recommend instead that these funds be deposited in the 
``Federal Land Disposal Account'' established by P.L.106-248, the 
Federal Land Transaction Facilitation Act (FLTFA).
    Thank you for the opportunity to testify. I will be glad to answer 
questions.
                                 ______
                                 
    Mr. Grijalva. Mr. Holtrop.

           STATEMENT OF JOEL HOLTROP, DEPUTY CHIEF, 
          NATIONAL FOREST SYSTEM, USDA FOREST SERVICE

    Mr. Holtrop. Thank you. Thank you for the opportunity to 
provide the Department's view on the Virginia Ridge and Valley 
Act. I am Joel Holtrop, Deputy Chief, National Forest System of 
the Forest Service.
    Mr. Chairman, this is my first opportunity to appear before 
your committee, and I look forward to working with you and this 
committee on issues affecting the Forest Service.
    We commend the sponsors and the committee for its 
collaborative approach, how they have worked with us, and who 
have sought local involvement that has contributed to support 
for this bill. The Department supports several of the 
designations included in the bill, but we object to other 
designations in the bill, and to mandatory planning and 
construction requirements.
    The Department would like to work with the committee to 
offer suggestions which we think will improve H.R. 1011. The 
Department supports the provisions that would designate the 
proposed Garden Mountain and Hunting Creek Camp Wilderness 
Areas. The Department supports designation of the Stone 
Mountain Wilderness Area, but is also willing to work with the 
committee to look at other options for protection.
    The Department supports the designation of many of the 
additions to existing wilderness. The Department does not 
oppose the designation of the Lynn Camp Creek Wilderness Study 
Area, the Mountain Lake B Addition, the Shawvers Run Additions 
B and C areas. However, we do have concerns about the 
suitability of these additions as components of the National 
Wilderness Preservation System due to their size and 
configuration.
    The Department does not support the designation as 
potential wilderness for the 349-acre portion of the Kimberling 
Creek area. As it limits the Secretary's discretion in the 
allocation of scarce resources and other management actions. 
Future wilderness designation of this area could be reevaluated 
after restoration activities occur.
    The Department does not support wilderness designation for 
the Brush Mountain and Brush Mountain East areas. These areas 
lie on the north side of Brush Mountain, and contain fire-
dependent forest habitat, which make up approximately 50 
percent of these two areas.
    Wildland-urban interface exists on the north and south 
boundaries. If designated as wilderness, our ability to utilize 
prescribed fire for the maintenance of southern yellow pine 
forest communities, and to conduct hazardous fuels reduction 
projects, would be hampered.
    Additionally, the narrow width of, and the bisecting 
powerline corridor within, these areas detract from their 
naturalness, and offer few opportunities for solitude.
    The Department could support the designation of the Racoon 
Branch area as a wilderness if agreements are reached that 
resolve trail maintenance issues in the area, and if the 
requirement contained in Section 5[d] of the bill for a 
sustainable trail is amended to provide more flexibility for 
future alternative trail locations.
    Nearly six miles of the Virginia Highlands Horse Trail and 
the Dickey Knob Trail traverse this area. These trails are 
heavily used by both equestrians and mountain bikers. 
Wilderness designation would eliminate mountain bike use within 
the area. While equestrian use is compatible with wilderness 
designation, heavy use and ground conditions along the Virginia 
Highlands Trail necessitate extensive maintenance to maintain 
the integrity of the trail, and protect watershed and other 
resource values.
    To maintain the trail to the standards that are needed 
without mechanized or motorized equipment will require 
cooperative agreements and commitments from user groups to help 
in maintenance, to protect the resources, and to provide for 
continued equestrian use of the trail.
    Section 4 of H.R. 1011 would establish Seng Mountain and 
Bear Creek National Scenic Areas. Although we have some 
concerns over the limitations on our ability to improve black 
bear habitat as a result of this designation, the Department 
could support designation of the Bear Creek National Scenic 
Area if allowances were made for seasonal motorized use of 
forest development road no. 6251 during hunting season, with 
the road remaining closed the rest of the year.
    The proposed Seng Mountain NSA is within the 
Congressionally designated Mount Rogers National Recreation 
Area. The Mount Rogers National Recreation Area is managed to 
provide public premier outdoor recreation benefits, and the 
continued use by a diversity of recreation users. The Seng 
Mountain area contains a motorized trail, the Barton Gap Trail. 
Motorized use of the trail would be prohibited under H.R. 1011. 
The Barton Gap Trail is one of only five designated motorcycle 
trails in the George Washington and Jefferson National Forests, 
and is an important part of the diversity of recreation 
opportunities that we provide the visitors that use the forests 
in the Mount Rogers National Recreation Area.
    The Department could support designation of the Seng 
Mountain National Scenic Area if the overlapping designation 
issue is clarified, and if continued motorized use on the 
Barton Gap Trail was allowed.
    H.R. 1011 would require the Secretary to establish a trail 
plan to develop hiking and equestrian trails on lands 
designated as wilderness by this bill. The Department considers 
the requirement to develop additional trail plans to be 
unnecessary.
    H.R. 1011 would also require the Secretary to develop a 
trail to provide a continuous connection for non-motorized 
travel. We believe that it would be costly and difficult to 
provide a trail in this general location that would be safe. 
The Department does not support a requirement to construct 
trail facilities without adequate consideration for 
alternatives, priorities, and funding sources.
    This concludes my statement, and I would be happy to answer 
any questions that you may have.
    [The prepared statement of Mr. Holtrop follows:]

Statement of Joel Holtrop, Deputy Chief, National Forest System, Forest 
 Service, U.S. Department of Agriculture, on H.R. 1011, Virginia Ridge 
                         and Valley Act of 2007

    Thank you for the opportunity today to provide the Department's 
view on H.R. 1011, the Virginia Ridge and Valley Act of 2007. I am Joel 
Holtrop, Deputy Chief, National Forest System of the Forest Service. I 
look forward to working with this committee on issues affecting the 
Forest Service.
    H.R. 1011 would designate 27,817 acres in the Jefferson National 
Forest as new components of the National Wilderness Preservation 
System. Specifically, the bill would designate the following areas: 
Brush Mountain East Wilderness, Brush Mountain Wilderness, Raccoon 
Branch Wilderness, Stone Mountain Wilderness, Hunting Camp Creek 
Wilderness, and Garden Mountain Wilderness. H.R. 1011 would also 
designate 11,344 acres as additions to existing wilderness areas 
namely, Mountain Lake Wilderness, Lewis Fork Wilderness, Little Wilson 
Creek Wilderness, Shawvers Run Wilderness, Peters Mountain Wilderness 
and Kimberling Creek Wilderness.
    H.R. 1011 would designate 3,226 acres in the Jefferson National 
Forest as the ``Lynn Camp Creek Wilderness Study Area.'' The bill also 
would designate 349 acres depicted on the map as the ``Kimberling Creek 
Additions Potential Wilderness Area'' as a potential wilderness area 
for eventual incorporation in the Kimberling Creek Wilderness. The bill 
would set forth requirements regarding ecological restoration within 
this area and would provide for the designation of the area as a 
wilderness within 5 years.
    In addition, the bill would designate 11,583 acres of the Seng 
Mountain and Bear Creek areas as National Scenic Areas for purposes of 
ensuring the protection and preservation of scenic quality, water 
quality, natural characteristics, and water resources; protecting 
wildlife and fish habitat; protecting areas that may develop 
characteristics of old-growth forests; and providing a variety of 
recreation opportunities.
    Finally the bill would direct the Secretary of Agriculture to 
develop a management plan for the designated national scenic areas. The 
Secretary also would be required to develop a trail plan for hiking and 
equestrian trails on lands designated as wilderness by this Act and to 
develop a plan for non-motorized recreation trails within the Seng 
Mountain and Bear Creek National Scenic Areas. The bill also would 
direct the Secretary to develop a sustainable non-motorized trail in 
Smyth County, Virginia.
    We recognize and commend the delegation and the committee for its 
collaborative approach and local involvement that has contributed to 
support for this bill. The Department is in support for several of the 
designations included in the bill but we object to other designations 
in the bill and to mandatory planning and construction requirements. 
The Department would like to work with the Committee to offer 
suggestions which we think will improve H.R. 1011.
Wilderness Proposals
    During the development or revision of a forest land and resource 
management plan (LRMP), a National Forest conducts an evaluation of 
potential wilderness or wilderness study area that satisfies the 
definition of wilderness found in section 2(c) of the Wilderness Act of 
1964. On NFS lands in the eastern United States (east of the 100th 
meridian) the criteria for evaluating potential wilderness recognizes 
that much, if not all of the land, shows signs of human activity and 
modification. The Record of Decision for the revised Jefferson National 
Forest LRMP, signed on January 15, 2004, was developed over an eleven 
year period with extensive public involvement. It contains 
recommendations for 25,200 acres of wilderness study areas, including 
new wilderness study areas and additions to existing areas designated 
as wilderness.
    The Department supports the provisions in H.R. 1011 that would 
designate new components of the National Wilderness Preservation System 
that are consistent with the Jefferson National Forest LRMP 
recommendations for wilderness study. These areas include the proposed 
Garden Mountain and Hunting Creek Camp Wilderness areas.
    The Stone Mountain area (referred to as Cave Springs area in the 
LRMP) is entirely underlain by Federal mineral ownership and is not 
currently under mineral lease. The Jefferson National Forest LRMP 
recommended this area for wilderness study. Congressional designation 
would make this the only wilderness within the Cumberland Mountain 
ecological section in Virginia. The Department supports designation of 
the Stone Mountain Wilderness Area but is also willing to work with the 
committee to look at other options for protection.
    The Department supports the designation of additions to existing 
wilderness areas for the following areas: Kimberling Creek A and B 
additions, Lewis Fork addition, Little Wilson Creek addition, Mountain 
Lake A and C additions, Peters Mountain addition, and Shawvers Run A 
addition.
    The Department does not oppose the designation of the ``Lynn Camp 
Creek Wilderness Study Area'', the Mountain Lake B addition, and 
Shawvers Run Additions B and C areas. However, we have concerns about 
the suitability of these additions as components of the National 
Wilderness Preservation System (NWPS) due to their size and 
configuration. An additional concern with the Mountain Lake addition B 
is that it contains a 59 acre private inholding which could require 
associated road access in the future if the parcel is developed.
    The Department does not support the designation as ``potential 
wilderness'' for the 349 acre portion of the Kimberling Creek area. The 
designation ``Potential Wilderness'' is not a designation referenced in 
the Wilderness Act of 1964. A subsequent designation of wilderness 
following a fixed time period and associated compulsory changes in 
conditions can serve to limit the Secretary's discretion in the 
allocation of scarce resources and other management actions associated 
with the administration of the National Forest System and the NWPS. We 
use the term, potential wilderness, in our wilderness evaluation 
process under our LRMP efforts to evaluate areas as potential additions 
to the NWPS. The Kimberling Creek addition was recently acquired as NFS 
land and in its current condition does not contain the basic natural 
characteristics that make it suitable for wilderness due to an 
extensive road network. We would recommend that the committee consider 
allowing the Secretary to continue the current management prescription 
for this area which is Dispersed Recreation-Unsuitable. This management 
emphasis provides for a variety of dispersed recreation uses with 
minimal vegetation management and would allow use of motorized and 
mechanized equipment for needed road and trail rehabilitation work. We 
plan to develop rehabilitation plans and implement these plans within 
the next 5 to 10 years. While this area was not recommended as a 
potential wilderness area in the LMP, future wilderness designation of 
this area could be reevaluated after restoration activities occur.
    The Department does not support wilderness designation for the 
Brush Mountain and Brush Mountain East areas. These areas lie on the 
north side of Brush Mountain and are separated by a 345 Kilovolt 
powerline corridor. They were not recommended for wilderness study in 
LRMP. They contain fire-dependent forest habitat which make up 
approximately 50 percent of these two areas. Additionally, the areas 
are largely surrounded by private lands. Wildland urban interface 
(subdivisions and housing developments) exists on the north and south 
boundaries. If designated as wilderness, our ability to utilize 
prescribed fire for the maintenance of southern yellow pine forest 
communities and to conduct hazardous fuels reduction projects would be 
hampered in these interface areas. Our ability to use prescribed fire 
is compromised when we cannot mechanically construct firelines to 
better control fire management activities. Additionally, the narrow 
width of, and the bisecting powerline corridor within these areas 
detract from their naturalness and offer few opportunities for 
solitude.
    The Department could support the designation of the Raccoon Branch 
area as a wilderness area if agreements are reached in resolving trail 
maintenance issues in the area and if the requirement contained in 
section 5(d) of the bill for a sustainable trail is amended to provide 
more flexibility for any future alternative trail locations. Nearly six 
miles of the Virginia Highlands Horse Trail (VHHT) and the Dickey Knob 
Trail traverse this area. These trails are heavily used by both 
equestrians and mountain bikers. Wilderness designation would eliminate 
mountain bike use within the area. While equestrian use is compatible 
with wilderness designation, heavy use and ground conditions along the 
VHHT necessitate extensive maintenance to maintain the integrity of the 
trail and protect watershed and other resources values. To maintain the 
trail to the standards that are needed without mechanized or motorized 
equipment will require cooperative agreements and commitments from user 
groups to help in maintenance to protect the resources and to provide 
for continued equestrian use of the trail.
National Scenic Area Proposals
    Section 4 of H.R. 1011 would establish Seng Mountain and Bear Creek 
National Scenic Areas (NSA). Although we have concerns over the 
limitations on our ability to improve black bear habitat as a result of 
this designation, the Department could support designation of the Bear 
Creek NSA if allowances were made for seasonal motorized use of Forest 
Development Road #6251 during hunting season, with the road remaining 
closed the rest of the year.
    The proposed Seng Mountain NSA is within the congressionally 
designated Mount Rogers National Recreation Area (NRA). The Mount 
Rogers NRA is managed to provide public outdoor recreation benefits and 
the continued use by a diversity of recreation uses. The Seng Mountain 
area contains a motorized trail, the Barton Gap Trail #4624. Motorized 
use of the trail would be prohibited under H.R. 1011. The Barton Gap 
Trail is one of only five designated motorcycle trails on the George 
Washington and Jefferson National Forests and is an important part of 
the diversity of recreation opportunities that we provide the visitors 
that use the Forest and the Mount Rogers NRA. The Department would like 
to work with the committee to resolve any confusion resulting from the 
overlapping designations for the Seng Mountain area. The Department 
could support designation of the Seng Mountain NSA if the overlapping 
designation issue is clarified and if continued motorized use on the 
Barton Gap Trail was allowed.
Trail Development Plans
    H.R. 1011 would require the Secretary to establish a trail plan to 
develop hiking and equestrian trails on lands designated as wilderness 
by this bill. The designated lands would be administered in accordance 
with the Wilderness Act. Trail development in wilderness rarely occurs 
in order to preserve wilderness character. The Forest Service already 
addresses trail management and planning standards within the LRMP 
planning process. The Department considers the requirement to develop 
additional trail plans to be unnecessary.
    H.R. 1011 also would require the Secretary to develop a sustainable 
trail to provide a continuous connection for non-motorized travel 
between County Route 650 and Forest Development Road 4018. This trail 
would be along State Route 16. We believe that it would be costly and 
difficult to provide a trail in this general location that would be 
safe for both equestrians and mountain bikers. The existing gravel road 
(State Route 650), is winding and narrow and contains several blind 
curves. It receives high local use and is the main access road for 
campers and recreational vehicles to enter Hurricane Campground. 
Further, a potential connector trail for horses and bikes from Route 
650 along the route of the old Marion-Rye Valley rail bed would require 
crossing State Route 16, a 55-mph state highway that receives heavy 
commercial use, in a location with poor sight distance. Trail 
construction along the stream would be unlikely to meet our Forest 
standards for riparian protection. The Department does not support such 
a requirement to construct trail facilities without adequate 
consideration for alternatives, priorities and funding sources.
    This concludes my statement, I would be happy to answer any 
questions that you may have.
                                 ______
                                 
    Mr. Grijalva. Thank you, sir. In my opening statement I 
mentioned that, with regards to H.R. 523, that there was some 
concerns and some need for clarification on some points. And to 
that end, to get some clarification as this legislation moves, 
let me ask Mr. Ferguson a couple of questions.
    The BLM parcels that would be sold under the legislation, 
have they been formally identified for disposal by BLM, on a 
BLM land use plan?
    Mr. Ferguson. None of the lands that are identified in this 
bill are included as being identified for disposal under the 
land use plan, which was approved in about 1987.
    Mr. Grijalva. So that means that they could not be sold 
administratively?
    Mr. Ferguson. Generally, our focus is on either disposal 
through exchange or sale only of parcels identified for sale or 
disposal in our land use plans.
    In this case, we cannot take any administrative action 
because they have been reserved for power site purposes.
    Mr. Grijalva. And let me go back. Why aren't they listed 
for disposal?
    Mr. Ferguson. Because they were reserved in 1962 for power 
site purposes. So when we did the land use plan, that was the 
driver for those parcels.
    Mr. Grijalva. And so if we wanted, if BLM wanted to 
identify these parcels for disposal, that would require 
amending the land use plan as it stands currently?
    Mr. Ferguson. It would actually require several steps. It 
would require approval from the Federal Energy Regulatory 
Commission. It would require amending the land use plans. It 
would require appraisals. And it would require public 
notification.
    Mr. Grijalva. Public notification, public comment would be 
part of that.
    Mr. Ferguson. Right. Yes, sir.
    Mr. Grijalva. So if we legislate through this legislation, 
do you have any concern that the public then would not have any 
opportunity to, A, be notified, and B, comment?
    Mr. Ferguson. Well, I believe, by virtue of having 
hearings, it affords the public an opportunity to provide some 
comment.
    Mr. Grijalva. If BLM owns the land during the relicensing 
process, do you anticipate, would you anticipate putting any 
requirements on the license to, say, protect resources on those 
public lands.
    Mr. Ferguson. The current license runs through 2012. It is 
too early for us to really know what kind of conditions or 
recommendations we would provide for the proposal.
    Mr. Grijalva. So at this point it would be, so any 
different requirements, any conditions would be down the road, 
as we approach 2012?
    Mr. Ferguson. Yes, sir. It is a little too early for us to 
evaluate that.
    Mr. Grijalva. Let me ask you about precedent, and then I 
will move on.
    Any concern on the part of BLM that we might set a 
precedent here that could be a bad precedent, where anyone 
seeking a new license would try to get BLM or other agencies to 
sell any land they own within that boundary.
    Mr. Ferguson. I believe that we can consider any future 
proposals that are similar on a case-by-case basis. I am sure 
there are people who may raise that concern, you know. In this 
particular case we have on the order of a dozen small, isolated 
parcels that total 622 acres. I suspect that we would want to 
look a little deeper and a little more closely if it was a 
large piece and involved more significant resources.
    Mr. Grijalva. OK. Last point. And if I may, the issue of 
public access. What current rules do we have regarding public 
access to the river on the parcels that are owned by BLM?
    Mr. Ferguson. We have no specific rules. It is an 
undeveloped site. It is just open to public access.
    Mr. Grijalva. So the access is available----
    Mr. Ferguson. Yes, sir.
    Mr. Grijalva.--pretty readily. How do you expect, if the 
land is sold to the public utility, do you anticipate those 
open-ended rule in terms of accessibility to continue, or not?
    Mr. Ferguson. I wouldn't want to speculate on what the 
public utility district would want to do. I think if there is a 
concern over that, that may be something that Congress may want 
to consider in providing some protections within the 
legislation.
    Mr. Grijalva. Very kind, thank you. And let me turn to Mr. 
Sali. And I probably, I have some questions for Mr. Holtrop, 
but in the second go-around. And my time is up now, sir.
    Mr. Sali. Mr. Chairman, Mr. Hastings has time problems. If 
I could just trade spots with him, let him go right now.
    Mr. Grijalva. Sir?
    Mr. Hastings. Thank you very much, Mr. Chairman. And thank 
you once again for your courtesy in allowing me to come up here 
on the dais.
    For Mr. Ferguson, thank you for being here and for your 
agency working with the PUD on this over the last several 
years.
    One of the concerns that you referenced in your testimony 
was the bald eagle. We have a lot of bald eagles up in our part 
of the country.
    Just to clarify, are bald eagles nesting on the BLM parcels 
that are affected by this bill?
    Mr. Ferguson. I am not aware of any nest sites on any of 
these parcels. I know there are some roost sites. I am not 
aware of any nesting.
    Mr. Hastings. Right. One of these, it just dawned on me, 
one of these sites to be transferred is underwater, is that 
correct? That BLM owns, that is underwater?
    Mr. Ferguson. I believe at least one of them, yes.
    Mr. Hastings. Yes. Generally speaking, and this is I think 
probably overall for your agency, is BLM seeking to consolidate 
its smaller, isolated parcels into larger ones? And if, in 
fact, you are, would this conveyance then be consistent with 
that policy?
    Mr. Ferguson. First of all, the conveyance would be 
consistent with the policies that we have. In general, we look 
at small, isolated tracts that are difficult to manage as being 
available for disposal.
    Again, that was not the case with these, because of the 
power site withdrawal.
    Mr. Hastings. And because the way they are physically 
located within the project.
    Mr. Ferguson. Yes.
    Mr. Hastings. But overall, though, I mean, if the desire is 
to consolidate BLM land which happens, I know, sometimes in a 
checkerboard pattern in various parts, this would be consistent 
with at least that consolidation, because this is isolated. 
Would that be a correct statement?
    Mr. Ferguson. Yes, sir, it would.
    Mr. Hastings. OK. And finally, when you were responding to 
the Chairman about the relicensing, to date you have not 
indicated any interest in opposing any conditions at all, or 
taken a position, on the relicensing of the Wells Dam.
    Mr. Ferguson. To my knowledge, we have not even begun 
conversations about what we might or might not consider in the 
way of recommendations.
    Mr. Hastings. OK. So it is fair to say, I mean, obviously 
nothing is set in concrete, but your interest is zero right 
now. That could change. But your interest is zero right now, is 
that correct?
    Mr. Ferguson. I hesitate to say our interest is zero. But 
your point that we have not really taken an active role in 
discussions is correct.
    Mr. Hastings. OK, all right. Thank you. Thank you very 
much, Mr. Chairman. Again, thank you for the courtesy; I 
appreciate it.
    Mr. Grijalva. Thank you very much, sir. Mr. Sali, any 
questions?
    Mr. Sali. I think I heard you say just a few minutes ago 
that mountain biking would be an excluded recreational activity 
in wilderness areas, and yet I heard Congressman Boucher a few 
moments ago describe mountain biking as one of the recreational 
opportunities that would exist for the area in H.R. 1011.
    Is he correct, or are you correct?
    Mr. Ferguson. We are both correct. The National Wilderness 
Preservation System, we do not allow mountain biking in 
designated wilderness. This piece of legislation does also have 
a couple of national scenic areas designated, which, through 
negotiations and discussions with the Mountain Biking 
Association, were decided to be national scenic areas so that 
mountain biking could continue to be used in those areas, as 
well as in the Raccoon Branch Wilderness Area, which has a 
currently popular mountain bike trail.
    Legislation designates an alternate route to be constructed 
around that, which is one of those areas that we have some 
concern over the designation of that specific route.
    Mr. Sali. Can you describe for me, in terms of percentage 
of the amount of land we are dealing with, what part will be 
allowed, mountain biking be allowed on, and what part will it 
be excluded from? What percentage?
    Mr. Ferguson. Well, of the parcels of land that we are 
describing in this particular piece of legislation, the 39,000 
acres or so that would be designated wilderness would not have 
mountain biking on it. The wilderness study and the potential 
wilderness that are included in here would eventually, if they 
became wilderness, would not allow mountain biking. And the 
national scenic areas, which are nearly 12,000 acres, would 
allow mountain biking.
    Mr. Sali. And 12,000 acres for all three of those last 
categories?
    Mr. Ferguson. The national scenic areas is around, is 
11,583 acres.
    Mr. Sali. And the wilderness study areas, and there was one 
other category?
    Mr. Ferguson. The wilderness study area is 3,226 acres; the 
potential wilderness, 349 acres. So it is another 3,500 acres.
    Mr. Sali. So on about a third of it it would be allowed, 
and--well, actually less than a third, I guess.
    Mr. Ferguson. Of these particular parcels. Of course, that 
has to be understood in the context of a 1.8 million acre 
national forest.
    Mr. Sali. Right. Can you describe what is a forest plan? 
How it is developed, what does it cost. You know, why do we use 
it, those kinds of things?
    Mr. Ferguson. Certainly. The forest plans are required of 
each of our national forest units, under the National Forest 
Management Act. And they, under the regulations that the 
Jefferson National Forest Plan was prepared, which was 
completed in 2004, it took us many years of work and millions 
of dollars to prepare this plan.
    It provides long-term direction on the allocation of the 
land resources, taking into account a consideration of the 
various uses that the national forests are set aside for, both 
providing opportunities for public services and recreational 
opportunities, and timber opportunities, and oil and gas, and 
mineral extraction, as well as protecting ecosystems.
    And the forest plan is a publicly, is a public process that 
we go through in order to make some determinations as to how we 
recommend the forest is going to be managed in the long term.
    Mr. Sali. Does H.R. 1011 follow the guidelines of the 
forest plan?
    Mr. Ferguson. There are aspects of H.R. 1011 that are very 
specifically similar to what our forest plan has. There are 
other aspects of it which are somewhat different than what our 
forest plan recommendation was. And then there are some in 
which it was different enough that we had a hard time becoming 
comfortable with that.
    The forest plan is, it is a plan that we are very 
comfortable with. We are confident in the forest plan that we 
put together. We are confident in the public process that we 
used. But we aren't so certain that that is the only possible 
appropriate approach to take, and that there are other public 
processes that come into play, including Congress's ability to 
take a look at both our forest plan and other input that they 
get as to what wilderness designations, because Congress will 
pass the laws to actually designate wilderness.
    What we try to do is to encourage looking at what our 
forest plan has included as its recommendation. And then, if 
there are additional recommendations for additional wilderness 
beyond what our forest plan said, we look at how we felt, why 
we made the decisions that we made. Are there aspects of having 
a wilderness that causes us such concern that we can't at least 
be somewhat supportive of it? And so we do some weighing as we 
look at a piece of legislation.
    Mr. Sali. Can you kind of follow up and describe which 
areas are outside of the forest plan, with respect to H.R. 
1011? And your level of discomfort, I guess.
    Mr. Ferguson. I can talk about that. Several of the 
wilderness additions are consistent with the forest plan. A 
couple of the new wilderness areas are consistent with the 
forest plan.
    The areas in the legislation that are significantly, that 
are different enough from the forest plan for reasons--and it 
is not just because it is different from the forest plan, but 
the resource reasons that we considered in making our 
recommendations.
    The areas that created the greatest discomfort for us were 
the Brush Mountain and Brush Mountain East designations, as 
well as we struggled with the Raccoon Branch designation, 
mostly because of the trail issues associated with that, 
recognizing the importance of continuing to provide mountain 
biking opportunity, and also recognizing the difficulty of 
providing a safe, economically feasible trail as an 
alternative.
    Mr. Sali. Thank you, Mr. Chairman.
    Mr. Grijalva. Thank you, Mr. Sali. Let me, before they are 
going to call us to vote, and hopefully we will get done with 
this panel and the questions, let me, Mr. Holtrop, let me ask 
you a couple of questions relative to the legislation 
introduced by our colleague.
    We are going to work on your comfort level for a little 
while there. You raised some concerns about the term potential 
wilderness. And the concept is not new. I am sure you are aware 
that this concept was used in the Northern California Coastal 
Wild Heritage Act, the Creek Wilderness, and the Illinois 
Wilderness. Am I correct that that term was used in those 
designations?
    Mr. Holtrop. I don't recall for sure. I don't know that it 
has been used before. And it is certainly used in even our own 
planning process.
    Mr. Grijalva. Let us go to another point that you mentioned 
in your response to my colleague, the Ranking Member's, 
questions. That had to do with, your testimony that you do not 
support the wilderness designation for Brush Mountain and Brush 
Mountain East areas.
    However, the local County Board of Supervisors, the 
neighborhood association closest to the areas, have endorsed 
the proposal. And so the concern about the wildland-urban 
interface I think has been addressed by these local landowners.
    I also understand that the bill sponsors offered to work 
with the Forest Service to incorporate fire language from the 
Northern California Coastal Wild Heritage Act. And was this 
language offer accepted or rejected with regard to the Forest 
Service, sir?
    Mr. Holtrop. I can't address directly the question about 
the language from the Northern California Forest Protection 
Act. But what I can say is that there are a variety of reasons 
why we do not support the Brush Mountain and the Brush Mountain 
East wilderness proposal.
    Some of those reasons are because there are some ecosystem 
needs for the use of fire for maintaining an ecosystem in that 
area, and that the burgeoning growth of the wild and urban 
interface on both sides of that.
    But there is also the fact that it is a very long, narrow 
corridor, with roads on both sides, a power line corridor 
through it. It doesn't really provide the type of solitude 
experience that you expect in wilderness.
    Mr. Grijalva. Another point that you made, that the Forest 
Service could support the Raccoon Branch wilderness area if 
agreements were reached on trail maintenance on the Virginia 
Highlands Horse Trail. I think you mentioned that.
    Mr. Holtrop. That, and if we can address the issues of an 
alternative trail for mountain biking.
    Mr. Grijalva. I am going to submit for the record a 
grievance submitted to the Forest Service for voluntary 
services, from several local individuals and groups, to perform 
the trail maintenance in the Raccoon Branch. The Forest Service 
has been provided with copies of these documents. I would ask 
you, and you could submit that later, to look at these 
documents, and respond to us at some point whether they address 
your concerns or not in terms of the maintenance question.
    Mr. Holtrop. I would be happy to do that. I am aware that 
that work has been done. I appreciate the work of the sponsors 
in the committee to work on working out those types of 
arrangements.
    This is a trail that requires a considerable amount of 
work. And the continuing dialogue we would have to have is the 
long-term commitment and the clear recognition of the magnitude 
of the tasks that these organizations are agreeing to take on.
    Mr. Grijalva. My cursory look at those agreements, I think 
that the commitment is a solid one, and I would hope that you 
would review those documents that are available to you.
    Mr. Holtrop. We would be happy to.
    Mr. Grijalva. I wanted to mention one last thing. And Mr. 
Bishop is here; I don't know if he has any questions.
    You mentioned also, Mr. Holtrop, that the designation issue 
that we are talking about, there is two levels of comfort. And 
you know, it is a prerogative of Congress to do those 
designations, given the information at the hearing and the 
quality and content of the legislation that we are reviewing.
    And I would hope that as we go through this process, that I 
think many of the concerns that you raised have been addressed, 
or attempted to be addressed, and we will review those. If 
there is any additional issues that you want to raise, if you 
could submit those to us. But at least my look at it, it seems 
a lot of the points that you are bringing as points of 
discomfort have been dealt with at some point or another with 
that legislation. But that is an opinion at this point.
    With that, any other questions? We have votes. Do you want 
to come back, Mr. Bishop? You are next.
    Mr. Sali. I am done.
    [Discussion held off the record.]
    Mr. Grijalva. Are there going to be any additional 
questions, Mr. Shuler, Mr. Bishop, for the panel? No.
    OK, thank you very much. And then we will resume I would 
hope in an hour or less, after we take these votes. Thank you 
very much.
    [Recess.]
    Mr. Grijalva. I reconvene the committee meeting, and 
welcome our next panel. Thank you very much, gentlemen. And let 
me begin with Mr. Davenport, please.

             STATEMENT OF TOM DAVENPORT, MANAGER, 
          MOUNT ROGERS OUTFITTERS, DAMASCUS, VIRGINIA

    Mr. Davenport. Mr. Chairman Grijalva, Members of the 
Subcommittee, thank you for the opportunity to express my views 
as a businessperson on H.R. 1011, the Virginia Ridge and Valley 
Act, introduced by Representative Rick Boucher.
    My name is Tom Davenport. I am the Business Manager for 
Mount Rogers Outfitters, an outdoor recreation retail 
establishment focused primarily on the backpacking and hiking 
segment of the market, located in Damascus, Virginia. I have 
lived in Damascus for the past 16 years.
    First I want to highlight the significant role the outdoor 
recreation retail industry plays in the U.S. economy, 
generating $289 billion annually in sales and services. It 
exceeds the sales of segments such as pharmaceutical and 
medicine manufacturing, automobile and light truck 
manufacturing, power generation and supply, and the motion 
picture and video industry, among others.
    Outdoor retailing is also significant in the Southeast, 
generating $51.3 billion in sales annually, and supporting 
nearly 800,000 jobs, more than any of the other eight census 
regions in the U.S.
    Outdoor retailing is also significant in small communities 
such as ours, in the Ninth Congressional District. Over the 
past 10 years, the town of Damascus has grown a respectable 
tourism-based economy. We have achieved national recognition in 
Backpacker Magazine and the Wall Street Journal.
    Our local economic success rests largely on two factors: A 
fair amount of entrepreneurial talent, and two, the proximity 
of a significant outdoor-resource attraction.
    People come to Damascus not because there is something to 
do or see in the town, but because of the recreational 
opportunities on the national forest. Because of the nature of 
our business, because of our proximity to national forest 
lands, and because of our interest in the quality of our 
outdoor recreation opportunities, we are actively involved in 
the management of national forests. We help maintain trails, we 
collaborate in public-participation opportunities, and we 
participate in forest plan processes.
    The managers of the Mount Rogers National Recreation Area 
have been supportive and responsive to the needs of our 
business, as well as other outdoor recreation businesses in 
Damascus. We view the Forest Service as a partner, and share a 
credit with them for the economic revitalization in our 
community.
    We think we are being realistic, however, in recognizing 
that the direction of national forest management can swing on 
political considerations, independent of our ability to control 
or influence them locally. We think that it is in our economic 
self-interest to secure the present and future integrity of a 
few of the best places on the national forest. We think it is 
in the economic self-interest of much of the rural portion of 
the region encompassed by the Ninth Congressional District.
    We were pleased to see the Boards of Supervisors of Smyth 
County, Bland County, Montgomery County, and Craig County 
endorse the permanent protection of these Federal lands in 
their district.
    Given the scale and distribution of Federal lands in the 
district, outdoor recreation retail sales could play a 
significant role in other local economies, just as it does in 
Damascus.
    Economics is about how to best utilize our natural, human, 
and capital resources to ensure our long-range future. The 
designations contained in the Virginia Ridge and Valley Act we 
think provide the most secure assurance that a key component of 
our economic vitality, our resources attraction, remains a 
high-quality resource.
    We ask that you advance this legislation.
    I will be glad to answer any questions the committee may 
have.
    [The prepared statement of Mr. Davenport follows:]

     Statement of Tom R Davenport, Business Manager for Mt Rogers 
      Outfitters, on H.R. 1011, The Virginia Ridge and Valley Act

    Chairman Grijalva, Ranking Member Bishop and members of the 
Subcommittee, thank you for the opportunity to express my views as a 
businessperson on H.R. 1011, the Virginia Ridge and Valley Act, 
introduced by Representative Rick Boucher.
    I am the business manager for Mt Rogers Outfitters, an outdoor 
recreation retail establishment focused primarily on the backpacking 
and hiking segment of the market.
    I am a relative newcomer to the retail industry; the first 25 years 
of my career were in manufacturing management.
    I am pleased now to be a part of a growing sector of the U.S. 
economy rather than a declining one. Nationwide the outdoor recreation 
retail industry generates $289 billion annually in retail sales and 
services. This makes outdoor recreation retailing big business, 
exceeding the sales contributions of several economic sectors, 
including pharmaceutical and medicine manufacturing; automobile and 
light truck manufacturing; power generation and supply; securities, 
commodity contracts, and investing; legal services; and the motion 
picture and video industry.
    Outdoor recreation retailing is also big business in the southeast. 
Of nine geographic census divisions in the U. S., the South Atlantic 
Region, which includes Virginia, generates more active outdoor 
recreation sales than any other, followed by the Pacific Region. In our 
region the industry generates $51.3 billion in retail sales annually 
and supports nearly 800,000 jobs.
    One significant feature about our industry is that you do not have 
to be a big operator to participate. It does, however, require a fair 
measure of entrepreneurial talent, and it requires a significant 
natural resource attraction.
    Our business is a small operation. We are located in Damascus, VA, 
a small community (population 981) surrounded on three sides by 
National Forest lands. Our business was the first outdoor retail 
business in Damascus, founded in 1991 by Dave Patrick, who, the 
previous year, was the first person from the area to complete a thru 
hike of the Appalachian National Scenic Trail (AT). The Appalachian 
Trail, in fact, follows a course down the main street of Damascus and 
on the sidewalk in front of our store.
    Long distance hikers and backpacking enthusiasts recognize the area 
around Damascus as an outstanding backpacking venue. The June, 2006 
edition of Backpacker Magazine highlighted the section of the AT from 
Grayson Highlands to Damascus as the best weekend hike on the entire 
AT. The article refers to our store as ``the ATs top hiking store''. 
Last year, the Wall Street Journal ran a feature about the ``Trail 
Days'' festival in Damascus, an event that draws maybe 20,000 people to 
our small town for a reunion and celebration of the hiking adventure.
    The economy of the town of Damascus is highly dependent on the 
National Forest and the natural resources and scenic quality of the 
area. We do have one light industrial facility on the outskirts of town 
and one general service grocery store. All other economic activity 
revolves around outdoor recreation, mostly on National Forest. People 
come to Damascus, not because there is something to do or see in the 
town, but because of the recreational opportunities in the National 
Forest.
    So far, we have managed to build our economic base locally, meaning 
that there are no regional or national chain-store franchises operating 
in the town--with the exception of gasoline service stations and one 
minor food establishment.
    The vast majority of the customers and clients that we serve at Mt 
Rogers Outfitters come from outside the area, even outside the state of 
Virginia. North Carolina, Ohio, Indiana, Michigan, and Florida stand 
out as major sources of our customer base. We are, therefore, bringing 
``new'' money into the area. We provide a variety of products and 
services for the customer. We emphasize gear that is functional (as 
opposed to gadgetry or fashion); we emphasize fit and performance 
(providing impromptu demonstrations and comparisons of products along 
with fit workshops); we provide detailed consultation in planning the 
ventures; we provide a bunkhouse for overnight stays in town; and we 
provide transportation to and from various trailheads. More 
importantly, we provide a gateway to a valued resource--one our 
customers cannot access in their home area.
    Many of our customers are, or become, long distance hikers or they 
seek off trail adventures to strengthen their outdoor skills and 
enhance their outdoor experience. Most of our customers value the 
solitude, remoteness, and natural qualities associated with the 
National Forests in our region. The comments we hear from these folks 
show that they connect with the mountains and forest in a very powerful 
and dynamic way, and that their experience elicits very strong 
emotions.
    Because of the nature of our business, because of our proximity to 
National Forest lands, and because of our interest, and our customer's 
interest, in the quality of our outdoor recreational opportunities and 
experience, we have been actively involved in participation in the 
management of the National Forest. We help maintain trails, we 
collaborate in public participation opportunities, and we participated 
in the forest plan revision process.
    During that planning process we advocated for Wilderness 
recommendations for Seng Mountain, Raccoon Branch, Garden Mountain, 
Hunting Camp/Little Wolf Creek, and for the proposed additions to Lewis 
Fork and Little Wilson Creek. These are the areas most frequently 
visited by our customers according to our shuttle records.
    We readily acknowledge that the management activities of the Forest 
Service in our service area have been generally sound and reasonable. 
The managers of the Mt Rogers National Recreation Area have been 
supportive and responsive to the needs of our business as well as the 
other outdoor recreation businesses that have recently sprung up in 
Damascus. We view the Forest Service as a partner and share credit with 
them for the economic revitalization in our community.
    We think we are being realistic, however, in recognizing that the 
direction of National Forest management can swing on political 
considerations independent of our ability to control or influence them.
    We think it is in our economic self interest to secure the present 
and future integrity of a few of the best places. Indeed we think it is 
in the economic self-interest of much of the rural portion of the 
region encompassed by the Ninth Congressional District. We were pleased 
to see the Smyth County and Bland County boards of supervisors endorse 
the permanent protection of these special areas in their counties. 
Given the scale and distribution of Federal lands in the District, 
outdoor recreation retail sales could play an increasingly significant 
role in other local economies, just as it does in Damascus.
    Economics is about how to best utilize our natural, human, and 
capital resources to ensure our long range future. The designations 
contained in the Ridge and Valley Act provide the most secure assurance 
that a key component of our economic vitality--our resource 
attraction--remains a high quality resource. We ask you to advance the 
Virginia Ridge and Valley Act.
                                 ______
                                 
    Mr. Grijalva. Thank you very much. We will turn to Mr. 
Muffo, Montgomery County Board of Supervisors.

STATEMENT OF JOHN MUFFO, SUPERVISOR, MONTGOMERY COUNTY BOARD OF 
               SUPERVISORS, BLACKSBURG, VIRGINIA

    Mr. Muffo. Chairman Grijalva, Ranking Member Bishop, and 
Members of the Subcommittee, I am John Muffo, a member of the 
Montgomery County Board of Supervisors. And I would like to 
thank you for providing me with the opportunity to testify 
today in support of H.R. 1011, the Virginia Ridge and Valley 
Act.
    I have lived in this area for 22 years, and it is easy to 
understand why the Montgomery County slogan is ``naturally good 
for business.'' We are located along Virginia's technology 
corridor and the Blue Ridge Mountains. Our county is home to 
Virginia's largest and most technologically oriented 
university, Virginia Tech.
    The nationally renowned Virginia Tech Corporate Research 
Center is home to a college of osteopathic medicine, and over 
100 companies engaged in leading-edge technology research.
    Amidst this growing development, Montgomery County is 
blessed with beautiful mountains and valleys and streams. 
Hiking, fishing, hunting, mountain biking, and other outdoor 
activities are enjoyed by residents and visitors alike. The 
Blue Ridge Parkway is easily accessible. The nearby Claytor 
Lake State Park is one of the most popular parks in the entire 
state.
    The New River, which, by the way, is the second-oldest 
river in North America, is a popular destination for canoeing, 
fishing, and tubing. Hiking and mountain biking trails abound, 
and are used widely. And most importantly, over 19,000 acres of 
the Jefferson National Forest are located in Montgomery County.
    During the Forest Service planning process in 2003, the 
Montgomery County Board of Supervisors adopted a resolution 
supporting wilderness designation for portions of Brush 
Mountain in Montgomery County. This resolution was adopted 
after a series of public meetings by the Board, with 
significant public input.
    While the Forest Service did not include our 
recommendations in the final plan, I am pleased that Senator 
Warner and Congressman Boucher did listen to the citizens and 
the Board of Supervisors, and did include the Brush Mountain 
wilderness area in the Virginia Ridge and Valley Act.
    The Board considered a number of factors when we voted to 
support a Brush Mountain Wilderness Area. First, and most 
importantly, we believe that the designation of the Brush 
Mountain Wilderness Area would enhance the quality of life for 
our constituents.
    The designation of portions of Brush Mountain as wilderness 
area ensures that this section will be enjoyed by current and 
future generations in its natural state. The protection of 
viewsheds is a high priority for the Montgomery County Planning 
Commission and the Board of Supervisors.
    Brush Mountain is a natural scenic backdrop for Blacksburg 
and nearby communities, and should be preserved to the extent 
possible.
    The County Comprehensive Plan recognizes and promotes the 
fundamental notion that the county's natural resources are 
vital to the county's quality of life, and provides substantial 
economic and recreational opportunities for the citizens of 
Montgomery County.
    Eco-tourism already benefits Montgomery County and has the 
potential to grow. It is a key element of the county's economic 
development plan. The Brush Mountain Wilderness Area, along 
with other outdoor activities, would certainly enhance 
Montgomery County as an attractive destination for outdoor 
enthusiasts.
    Looking at these factors, it is clear that the designation 
of the Brush Mountain Wilderness Area is a good investment for 
our community.
    Mr. Chairman, we in Montgomery County appreciate our 
national forest lands, and support responsible stewardship of 
those lands. Certain timber harvesting is an integral part of 
that forest plan, but so, too, should be other activities and 
considerations, such as recreation and viewshed preservation.
    As a member of the Board of Supervisors, I have learned 
that as our county grows at a rate of 1,000 people a year, 
approximately so, so do the demands for more recreational 
opportunities. The Jefferson National Forest offers a wide 
variety of outdoor activities that my constituents enjoy every 
day.
    Whether it is hiking, hunting, bird watching, fishing, or 
just enjoying nature, this area is what makes Montgomery County 
special. That is why the designation of the Brush Mountain 
Wilderness Area is so important. Favorable Congressional action 
would set aside a small portion of the forest for all to enjoy.
    I urge that the committee pass the Virginia Ridge and 
Valley Act.
    Thank you, and I will be happy to answer any questions that 
you may have. And as an aside, I shared these comments with my 
fellow supervisors before coming here, and there were no 
negative comments in regards to them.
    Thank you.
    [The prepared statement of Mr. Muffo follows:]

 Statement of The Honorable John A. Muffo, Montgomery County Board of 
      Supervisors, on H.R. 1011, the Virginia Ridge and Valley Act

    Chairman Grijalva, Ranking Member Bishop and members of the 
Subcommittee, I am John Muffo, a member of the Montgomery County Board 
of Supervisors, and I would like to thank you for providing me with the 
opportunity to testify today in support of H.R. 1011, the Virginia 
Ridge and Valley Act.
    It is easy to understand why Montgomery County's slogan is 
``Naturally good for business.'' We are located along Virginia's 
Technology Corridor in the Blue Ridge Mountains. Our county is home to 
Virginia's largest and most technologically oriented university, 
Virginia Tech. The nationally renowned Virginia Tech Corporate Research 
Center is home to a college of osteopathic medicine and over 100 
companies engaged in leading-edge technology research.
    Amidst this growing development, Montgomery County is blessed with 
beautiful mountains and valleys and streams. Hiking, fishing, hunting, 
mountain biking and other outdoor activities are enjoyed by residents 
and visitors alike. The Blue Ridge Parkway is easily accessible. The 
nearby Claytor Lake State Park is one of the most popular parks in the 
entire state. The New River, which is the second oldest river in North 
America, is a popular destination for canoeing, fishing, and tubing. 
Hiking and mountain biking trails abound and are widely used. And most 
importantly, over 19,000 acres of the Jefferson National Forest are 
located in Montgomery County.
    During the Forest Service Planning process in 2003, the Montgomery 
County Board of Supervisors adopted a resolution supporting wilderness 
designation for portions of Brush Mountain in Montgomery County. This 
resolution was adopted after a series of public meetings by the Board 
and with significant public input. While the Forest Service did not 
include our recommendation in the final plan, I am pleased that Senator 
Warner and Congressman Boucher did listen to the citizens and the Board 
of Supervisors and did include the Brush Mountain Wilderness Area in 
the Virginia Ridge and Valley Act.
    The Board considered a number of factors when we voted to support a 
Brush Mountain Wilderness Area. First and most importantly, we believed 
that the designation of the Brush Mountain Wilderness Area would 
enhance the quality of life for our constituents. The designation of 
portions of Brush Mountain as wilderness area ensures that this section 
will be enjoyed by current and future generations in its natural state.
    The protection of viewsheds is a high priority for the Montgomery 
County Planning Commission and the Board of Supervisors. Brush Mountain 
is a natural scenic backdrop for Blacksburg and nearby communities and 
should be preserved to the extent possible.
    The County Comprehensive Plan recognizes and promotes the 
fundamental notion that the County's natural resources are vital to the 
County's quality of life and provide substantial economic and 
recreational opportunities for the citizens of Montgomery County.
    Eco-tourism already benefits Montgomery County and has the 
potential to grow. It is a key element of the county's Economic 
Development Plan. The Brush Mountain Wilderness Area, along with other 
outdoor activities, would certainly enhance Montgomery County as an 
attractive destination for outdoor enthusiasts.
    Looking at those factors, it is clear that the designation of the 
Brush Mountain Wilderness Area is a good investment for our community.
    Mr. Chairman, we in Montgomery County appreciate our national 
forest lands and support responsible stewardship of those lands. 
Certainly timber harvesting is an integral part of the forest plan, but 
so too should be other activities and considerations such as recreation 
and viewshed preservation.
    As a member of the Board of Supervisors, I have learned that as our 
county grows at a rate of approximately 1,000 people per year, so do 
the demands for more recreational opportunities. The Jefferson National 
Forest offers a wide variety of outdoor activities that my constituents 
enjoy every day. Whether it is hiking, hunting, birdwatching, fishing 
or just enjoying nature, this area is what makes Montgomery County 
special.
    That is why the designation of the Brush Mountain Wilderness Area 
is so important. Favorable Congressional action would set aside a small 
portion of the forest for all to enjoy. I urge that the Committee pass 
the Virginia Ridge and Valley Act.
    Thank you. I will be happy to answer any questions that you may 
have.
                                 ______
                                 
    Mr. Grijalva. Thank you, Mr. Supervisor. We turn to Gerald 
Gray.

         STATEMENT OF GERALD GRAY, CLINTWOOD, VIRGINIA

    Mr. Gray. Chairman Grijalva, Ranking Member Bishop, and 
Members of the Subcommittee, thank you for the opportunity to 
testify today in support of H.R. 1011, the Virginia Ridge and 
Valley Act.
    My name is Gerald Gray; I am an attorney in Clintwood, 
Virginia, in Dickenson County, in Congressman Boucher's 
district. Dickenson County is located in far southwestern 
Virginia. The northern boundary of the county borders Kentucky, 
and on that state line there is a small portion of the 
Jefferson National Forest which separates the two states.
    Although my home county isn't slated for any proposed 
wilderness designation, nearby also in the district is the 
Stone Mountain Wilderness Area, which I think is a very good 
addition to the Jefferson National Forest, and it is in nearby 
Lee County.
    I have lived and practiced law in Dickenson County since 
1973. During that time I served two terms as the Commonwealth's 
Attorney. I currently serve on the Industrial Development 
Authority, the Chamber of Commerce Board, as well as the Board 
of Directors of the Ralph Stanley Museum and Traditional 
Mountain Music Center.
    I am also President of the Virginia Forest Watch, and I 
serve on the Board of Directors of the Virginia Conservation 
Network. But I am not here to testify before you this afternoon 
on behalf of any of these organizations or boards; I am here as 
a user of the national forest area. I am a fisherman and a 
horseback rider. I believe that it is very important to protect 
these special places of the Jefferson National Forest, and this 
proposed Act is going to accomplish just that.
    I am a fly fisherman. I have fished many of the rivers and 
creeks in the Jefferson National Forest, including those in the 
existing wilderness areas and the areas that are going to be 
expanded under this law. I have caught a lot of native trout 
throughout the national forests in Virginia and elsewhere. I 
fully support the public stewardship of our public lands.
    My wife and I are avid horseback riders. We have ridden 
many of the trails within the Jefferson National Forest, 
including those in existing wilderness areas. We have many 
friends who share our passion for the woods and the trails in 
the national forests.
    I believe that horseback riding gives a unique perspective 
of the natural beauty of our forests. That is why I fully 
support H.R. 1011. This legislation would protect nearly 55,000 
acres in the Jefferson as wilderness, wilderness study, or a 
national scenic area. It is a balanced bill, resulting from an 
open process which took a number of years, which involved 
public consultation and input.
    As a result of this inclusive process, the bill enjoys 
broad support in the local communities that would be affected 
by these designations.
    I particularly want to commend Senator Warner and my 
Congressman, Rick Boucher. I think that this Act is a good 
example of a collaborative effort in developing legislation. As 
the committee may be aware, the areas included in H.R. 1011 are 
based on either the recommendations of the National Forest 
Service, or were endorsed by the local County Board 
Supervisors, such as Mr. Muffo's board in Montgomery County. 
These criteria to develop and determine which areas ought to be 
designated, developed by Congressman Boucher and Senator 
Warner, have maximized, in my opinion they have maximized 
public participation.
    My wife and I, in fact, did participate in the forest 
planning process for the Jefferson. We attended planning 
meetings held throughout the area, participated in the various 
working groups, and submitted our comments.
    And while I appreciate the effort that went into the final 
plan, I do believe that the final plan fell short of providing 
a level of protection and wilderness that a majority of the 
public had supported. I believe that it is essential that we 
protect and preserve these rare treasures available in the 
Jefferson, and it is essential that our children and their 
children have the opportunity, the same one that we have had, 
to experience the wonder and beauty of the national forest.
    To reach the final result, as expressed in the Virginia 
Ridge and Valley Act, the Forest Service process was 
supplemented by several boards' and supervisors' actions. Under 
this process, citizens were able to present their views to 
their local elected officials, who were able to consider areas 
within the local context. At a local level, the citizen voices 
were heard. The result, expressed in the Act, was a blending of 
the Forest Service process and local input. I like the 
comprehensive approach, and I ask that this Subcommittee 
support that approach.
    Some critics of the legislation claim wilderness 
designation will put these areas off limits to hunting, 
fishing, or horseback riding. Although I am not a hunter, I can 
tell you from the aspect of fishing and horseback riding, that 
is simply not true. I believe that the wilderness designation 
is essential to maintain the pristine quality of these areas. 
By so doing, the quality of the experience is maintained and 
improved.
    Mr. Chairman, I urge the committee to approve H.R. 1011. 
The bill's result, as I stated before, of extensive public 
input is crucial to maintaining and improving a high quality of 
life in southwestern Virginia.
    Thank you for your attention.
    [The prepared statement of Mr. Gray follows:]

           Statement of Gerald L. Gray, Clintwood Virginia, 
            on H.R. 1011, The Virginia Ridge and Valley Act

    Chairman Grijalva, Ranking Member Bishop, and members of the 
Subcommittee, thank you for allowing me to testify today in support of 
H.R. 1011, the Virginia Ridge and Valley Act.
    I am Gerald Gray. I am a resident of Dickenson County, in 
Southwestern Virginia. Dickenson County borders Kentucky, and is home 
to a portion of the Jefferson National Forest near the top of the 
mountain ridge which separates the two states. Although my home county 
is not slated for wilderness or other designation, the proposed Stone 
Mountain Wilderness is located in nearby Lee County.
    I have lived and practiced law in Dickenson County for over 30 
years. During that time, I have served as the Commonwealth?s Attorney 
(1984-1991). I am currently a member of the Boards of the Dickenson 
County Industrial Development Authority, The Ralph Stanley Museum and 
Traditional Mountain Music Center, and the Dickenson County Chamber of 
Commerce.
    I also am the President and Chair of the Board of Directors of 
Virginia Forest Watch, ahttp://www.virginiaforestwatch.org) grass-roots 
based coalition of individuals and environmental groups, and I am a 
board member and serve on the Executive Committee of the Virginia 
Conservation Network, http://www.vcnva.org)a statewide coalition of 
conservation groups, which is also the Virginia affiliate of the 
National Wildlife Federation.
    I am here to testify today, not as a representative of any of those 
organizations, but as an individual who personally enjoys our 
forestlands and who recognizes the need to protect the special places 
of the Jefferson National Forest.
    Mr. Chairman, I enjoy the woods. I am a fly-fisherman and have 
fished many of the rivers and creeks in the Jefferson National Forest, 
including those in existing wilderness areas. I have caught many (and 
released most) native trout throughout the National Forests in Virginia 
and elsewhere. I fully support public ownership and stewardship of our 
public lands.
    My wife and I are avid horseback riders. We have ridden many of the 
trails within the Jefferson National Forest, including those in 
existing wilderness areas. We have many friends who share our passion 
for the woods, and the trails in the National Forests. I believe that 
horseback riding gives a unique perspective of the natural beauty of 
our forests.
    That is why I fully support H.R. 1011. This legislation would 
protect nearly 55,000 acres of the Jefferson National Forest as 
wilderness, wilderness study or national scenic areas. It is a balanced 
bill resulting from an open process of public consultation and input. 
As a result of this inclusive process the bill enjoys broad support in 
the local communities.
    I particularly want to commend Senator Warner and my Congressman, 
Rick Boucher, for introducing the Virginia Ridge and Valley Act and for 
the process that they used in developing their bill.
    As the Committee may be aware, most of the areas included in H.R. 
1011 are based upon the recommendations of the National Forest Service 
or else were endorsed by the local County Boards of Supervisors. These 
criteria, developed by Congressman Boucher and Senator Warner, 
maximized public participation.
    My wife and I participated in the forest planning process for the 
Jefferson. We attended planning meetings held throughout the area, 
participated in the various working groups and submitted our comments.
    I believe that the final Forest Plan fell short of providing the 
level of protection and wilderness that a majority of the public had 
supported. I believe that it is essential that we protect and preserve 
those rare treasures available in the Jefferson. I believe that it is 
essential that our children and their children have the opportunity to 
experience the wonder and beauty of our National Forests.
    To reach the final result as expressed in the Virginia Ridge and 
Valley Act, the Forest Service process was supplemented by several 
Boards of Supervisors? actions. Under this process, citizens were able 
to present their views to their local elected officials who were able 
to consider areas within the local context. At the local level, the 
citizen?s voices were heard. The result as expressed in the Act was a 
blending of the Forest Service process and local input. It is a 
comprehensive approach, which I hope that the Sub-Committee will 
support.
    Some critics of this legislation claim wilderness designation will 
put these areas off-limits to hunting, fishing or horseback riding. I 
can assure the Committee that nothing is further from the truth. In 
fact, I believe that wilderness designation is essential to maintain 
the pristine quality of these areas. By so doing, the quality of the 
experience is maintained and improved.
    Southwestern Virginia is blessed with many creeks and rivers within 
our forestlands. These waters are a crucial lifeline for native trout 
and for local communities.
    Unfortunately these rivers and streams face problems of 
development, more contaminants and increased sedimentation from 
logging--absent the protection offered by the Wilderness and other 
designation.
    In conclusion, Mr. Chairman, I would urge the Committee to approve 
H.R. 1011. This bill is the result of extensive public input and is 
crucial to maintaining--and improving--a high quality of life in 
Southwestern Virginia.
    Thank you. I will be glad to answer any questions that you may 
have.
                                 ______
                                 
    Mr. Grijalva. Now let me turn to our last witness on this 
panel, Mr. Steve Henson. Sir?

    STATEMENT OF STEVE HENSON, EXECUTIVE DIRECTOR, SOUTHERN 
    APPALACHIAN MULTIPLE-USE COUNCIL, CLYDE, NORTH CAROLINA

    Mr. Henson. Mr. Chairman, Mr. Ranking Member, thank you for 
the opportunity to come here today and be invited to talk about 
H.R. 1011.
    My name is Steve Henson. I am here today representing my 
organization, the Southern Appalachian Multiple-Use Council. We 
were established in 1975 by a group of businessmen who thought 
the multi-use concept of land management for our national 
forest was a pretty good idea toward landscape management. Our 
mission is to promote the balanced protection of forest land 
values across our region.
    With membership in several Appalachian states, including 
Virginia, we regularly participate in forest planning 
throughout the region on seven national forests. We have 
supported many activities initiated by Congress, 
Administrations, and U.S. Forest Service. We have also opposed 
plans that we felt weren't consistent with long-standing 
directives by Congress, or showed bad judgment regarding 
natural resource management.
    H.R. 1011 is one of those proposed actions we adamantly 
oppose, for it does not follow the direction of Congress, and 
in our view is bad judgment for managing large areas of public 
lands.
    The Virginia Ridge and Valley Act of 2007 came as quite a 
shock to us publics who monitor Federal land issues in the 
region. It virtually tosses out eight years of contentious 
debate on the revision of the Jefferson National Forest Plan, 
approved by the Forest Service in 2004.
    During the Jefferson debate, wilderness potential, 
according to the planning process and the Wilderness Act of 
1964, was highly scrutinized by teams of stakeholders. The 
result was 25,243 acres of suitable national forest lands 
designated as wilderness study areas. This designation means 
that the Forest Service has studied the areas, and recommends 
them for wilderness through the legislative process.
    We disagree with the Forest Service about the plan's 
recommendations regarding wilderness study areas for a number 
of reasons. We felt that some areas were completely surrounded 
by private lands; some contained important infrastructure and 
private inholdings. These designations would also eliminate 
many recreational activities long established in the areas, and 
restrict needed active management for wildlife, including 
threatened and endangered species.
    It was our view that these lands should have been removed 
from wilderness consideration because they didn't meet the 
basic criteria for wilderness designation, as defined by 
Congress.
    After reading the bill, we were astounded to find that not 
only had recommended wilderness areas been expanded, but also a 
new wilderness study area had been created; and the bill 
included a new category of highly restricted national scenic 
areas. The total acres involved amounted to over 54,000 acres, 
all of which can be characterized as wilderness or de facto 
wilderness. These additions contain many of the same elements 
that should, under Congress's direction for wilderness and 
special areas designations, disqualify them from consideration, 
and remain in active management status.
    Obviously the Virginia Ridge and Valley Act of 2007 is an 
attempt to circumvent the longstanding process of public input 
and evaluation, established by Congress, for permanent 
dedication of public lands to the most restrictive of Federal 
designations.
    Just how restrictive? Congressionally designated wilderness 
areas allow motorized vehicles and equipment by administrative 
agency only under catastrophic conditions. The only wildlife 
management technique allowed is prescribed burning; and to our 
knowledge, there has never been a prescribed burning in any 
wilderness area in the region.
    Any preventative measures for catastrophic health, forest 
health issues, such a fire, insect, and disease, can be 
employed only after many hoops and approval at the highest 
levels of the bureaucracy.
    In the specific case of H.R. 1011, 19,241 acres of proposed 
additional wilderness or de facto wilderness are already 
designated in the Jefferson plan as back country. Back country 
provides near-wilderness-like experience for man and beast. The 
difference is there is a lot of routine maintenance for forest 
health and fire control.
    In Montgomery County, some of these acres back up to an 
extensive housing development only a step away from wilderness 
wildfire. Back country protects the land, wilderness limits the 
human endeavor.
    What wasn't surprising about H.R. 1011, the environmental 
groups that worked with Congressional offices to draft the bill 
and promote it in the region. The Southern Environmental Law 
Center and their offspring, Southern Appalachian Forest 
Coalition, have lobbied long and hard for permanent land 
protections across the region. We know this because we have had 
to fight them every step of the way to actively manage public 
lands for many years.
    For instance, we know that their ultimate agenda is an 
elaborate plan to set aside a minimum of 50 percent of the land 
in the United States in wilderness or highly restricted 
designations for the protections of biodiversity. This plan is 
called the Wildlands Project, and is well documented on the 
internet.
    There you will find such strategies as closing major 
highways, including the Blue Ridge Parkway; removing major 
dams; and creating a reasonable economic system based on 
organic farming. You will also find the names of environmental 
organizations, including the Southern Environmental Law Center 
and Southern Appalachian Forest Coalition, developing and 
supporting the Wildlands Project.
    It is interesting to discover that their activities are 
financed predominantly through large grants from foundations, 
not grass-roots activism and membership contributions.
    Mr. Chairman, we believe that wilderness is a legitimate 
and worthy use of public lands. However, perpetuity is a long 
time, and thoughtful consideration and open public debate prior 
to Congressional action are essential, just as the Code of 
Federal Regulations requires that the Jefferson National Forest 
Plan revision provides.
    It will be a travesty to approve the Virginia Ridge and 
Valley Act of 2007, designed by environmentalists with a hidden 
agenda, and without the careful scrutiny Congress has demanded 
on public land activities across the country.
    Thanks for your time and consideration.
    [The prepared statement of Mr. Henson follows:]

  Statement of Steve Henson, Executive Director, Southern Appalachian 
 Multiple-Use Council, on H.R. 1011, Virginia Ridge and Valley Act of 
                                  2007

    Mr. Chairman:
    Thank you for inviting me to this hearing on H.R. 1011.
    I am here today representing my organization, the Southern 
Appalachian Multiple-Use Council. We were established in 1975 by a 
group of businessmen who thought the multiple-use concept of land 
management for our national forests was a pretty good way to approach 
landscape stewardship. Our mission is to promote the balanced 
protection of forestland values (water, fish & wildlife, timber, 
recreation and wilderness) across our region.
    With membership in several Appalachian states, including Virginia, 
we regularly participate in forest planning throughout the region on 
seven national forests. We have supported many activities initiated by 
Congress, administrations, and the U.S. Forest Service. We have also 
opposed plans that we felt weren't consistent with long-standing 
directives by Congress or showed bad judgment regarding natural 
resource management. H.R. 1011 is one of these proposed actions we 
adamantly oppose for it does not follow the directives of Congress and, 
in our view, is bad judgment for managing large areas of public lands.
    The Virginia Ridge and Valley Act of 2007 came as quite a shock to 
us publics who monitor federal land issues in the region. It virtually 
tosses out 8 years of contentious debate on the revision of the 
Jefferson National Forest plan approved by the U.S. Forest Service in 
2004.
    During the Jefferson NF debate wilderness potential, according to 
the planning process and the Wilderness Act of 1964, was highly 
scrutinized by teams of stakeholders. The result was 25,243 acres of 
suitable national forest land designated as ``Wilderness Study Areas.'' 
This designation means that the Forest Service has studied the areas 
and recommends them for wilderness through the legislative process.
    We disagreed with the Forest Service about the plan's 
recommendations regarding ``Wilderness Study Areas'' for a number of 
reasons. We felt that some areas were completely surrounded by private 
lands, some contained important infrastructure (roads and power lines) 
and private inholdings. These designations would also eliminate many 
recreation activities long-established in the areas, and restrict 
needed active management for wildlife, including threatened and 
endangered species. It was our view that these lands should have been 
removed from wilderness consideration because they didn't meet the 
basic criteria for wilderness designation as defined by Congress.
    After reading the bill we were astounded to find that not only had 
recommended wilderness areas been expanded, but also a new wilderness 
study area had been created; and, the bill included a new category of 
highly restricted ``National Scenic Areas.'' The total acres involved 
amounted to over 54,000 acres, all of which could be characterized as 
``wilderness'' or defacto wilderness. These additions contain many of 
the same elements that should, under Congress's direction for 
wilderness and special areas designation, disqualify them from 
consideration and remain in active management status.
    Obviously, the Virginia Ridge and Valley Act of 2007 is an attempt 
to circumvent the long-standing process of public input and evaluation, 
established by Congress, for the permanent dedication of public lands 
to the most restrictive of federal designations.
    Just how restrictive?
    Congressionally designated wilderness areas allow motorized 
vehicles and equipment by the administrative agency only under 
catastrophic conditions. The only wildlife management technique allowed 
is prescribed burning, and to our knowledge there has never been a 
prescribed burn in any wilderness area in the region. Any preventive 
measures for catastrophic forest health issues, such as fire, insect 
and disease can be employed only after many hoops and approval at the 
highest levels of the federal bureaucracy.
    In the specific case of H.R. 1011, 19,241 acres of the proposed 
additional wilderness or defacto wilderness are already designated in 
the Jefferson Forest Plan as Backcountry. Backcountry provides a near-
wilderness-like experience for man and beast. The difference is that it 
allows for routine management for forest health and fire control. In 
Montgomery County some of these acres back up to an extensive housing 
development--only a step away from wilderness wildfire. Backcountry 
protects the land. Wilderness limits the human endeavor.
    What isn't surprising about H.R. 1011 are the environmental groups 
that worked with Congressional offices to draft the bill and promote it 
in the region. The Southern Environmental Law Center (SELC) and their 
offspring Southern Appalachian Forest Coalition (SAFC), have lobbied 
long and hard for permanent land ``protections'' across the region. We 
know a lot about them because we have had to fight them every step of 
the way to actively manage public lands for many years.
    For instance, we know that their ultimate agenda is an elaborate 
plan to set aside a minimum of 50% of the land in the United States in 
wilderness or highly restricted designations for the protection of 
``biodiversity.'' The plan is called The Wildlands Project and is well 
documented on the Internet.
    An excellent web site describing the Project's plan for this region 
is www.wildlandsprojectrevealed.org. There you will find such 
strategies as closing major highways (including the Blue Ridge 
Parkway), removing major dams, and creating a regional economic system 
based on organic farming. You will also find the names of environmental 
organizations, including SELC and SAFC, developing and supporting The 
Wildlands Project. It is interesting to discover that their activities 
are financed predominately through large grants from foundations, not 
grass roots activism and membership contributions.
    Mr. Chairman, we believe that wilderness is a legitimate and worthy 
use of public lands. However, perpetuity is a long time and thoughtful 
consideration and open public debate prior to Congressional action are 
essential--just as the Code of Federal Regulations requires and the 
Jefferson National Forest plan revision provides. It would be a 
travesty to approve the Virginia Ridge and Valley Act of 2007 designed 
by environmentalists with a hidden agenda, and without the careful 
scrutiny Congress has demanded on public land activities across the 
country.
    Thanks again for the subcommittee's time and consideration.
                                 ______
                                 
    Mr. Grijalva. Thank you, sir. And I thank all the panelists 
for your testimony.
    Let me begin my opportunity for questions with the 
supervisor. Mr. Supervisor, the Forest Service has told us that 
they do not support the wilderness designation for Brush 
Mountain and the Brush Mountain East based on fire concerns. 
How do you view these concerns, as an elected official and 
representative in the area?
    Mr. Muffo. Well, I don't quite understand it, frankly. 
Safety obviously is a primary concern for us, and fire safety 
is one of those concerns.
    As you mentioned earlier, the neighborhood association in 
the area that borders that area actually supports this bill. 
There is a road on the top of the mountain--and by the way, I 
think it is helpful for people to understand there is a very, 
very steep mountain, and that is what we are talking about. The 
back side of the mountain.
    It is the front side of the mountain that is developed. So 
this fire, in order to actually, the fire to reach it, it would 
have to go up the mountain, over and down the mountain to reach 
the developed part. And there is a fire road that goes right on 
top of the mountain.
    So I am not really sure exactly how the fire is supposed to 
reach these people. But that being said, and by the way, I have 
lived there 22 years; I have never seen a fire up there. And I 
go there, I see the mountain every day. I am not sure, our 
gentleman down here, I am not sure how often he views the 
mountain, but I see it every day.
    Also, if it is a wilderness area, there is no reason why 
fire can't be suppressed up there. That road, by the way, would 
not be in the wilderness area, and there would be no--the fact 
that it is a wilderness area I understand doesn't mean that 
fires can't be fought there.
    And so I just don't understand how it would affect it 
negatively in any way.
    Mr. Grijalva. Let me ask you a couple more questions, Mr. 
Supervisor.
    Mr. Muffo. OK.
    Mr. Grijalva. You heard from your fellow panelist, Mr. 
Henson, that the charge that the Virginia Ridge and Valley Act 
of 2007, the legislation we are talking about, circumvents the 
process of public input.
    Are there designations in H.R. 1011 consistent with the 
public process that you had in your area, that just, in 
general, the public process community being involved? One of 
the issues being raised today is that we circumvented that 
process.
    Mr. Muffo. We have public input. We had open meetings. By 
law, we have to advertise our meetings. This issue was on our 
agenda. We had public input at our meetings, and the public 
that came to our meetings was supportive of this issue.
    And by the way, when I go to the grocery store, I have to 
face these people. And I am not some faceless bureaucrat. So I 
have to live with these people. So I am not sure who--maybe the 
Forest Service has a different way of communicating with these 
folks I don't have, but the seven people on our board have to 
face the people who live there.
    So anyway, that is all I can say. We have to deal with 
these people on a regular basis, and they are telling us they 
want it.
    Mr. Grijalva. Let me follow up, Mr. Supervisor. Last 
question, and then I will turn to some of the other witnesses.
    And having served in the wonderful capacity as a county 
supervisor myself for 13 years, your going to the grocery store 
analogy is absolutely true. Sometimes you dreaded going for 
that piece of grocery.
    Mr. Muffo. Exactly.
    Mr. Grijalva. And sometimes you really enjoyed it. Beyond 
Montgomery County, can you list the other counties in Virginia 
that passed resolutions in support of this additional, that 
were not included in that Jefferson Forest plan?
    Mr. Muffo. I think some of the other folks here are more 
knowledgeable about that than I. I know Craig is a border 
county that did, and Smith and Bland.
    Mr. Grijalva. OK. Mr. Davenport, let me ask you some 
questions. You were dying to give an answer, so I might as well 
ask you.
    Mr. Davenport. Thank you.
    Mr. Grijalva. The Forest Service again raised some concerns 
about the maintenance of the trail in the proposed Raccoon 
Branch Wilderness Area. Did Mount Rogers Outfitters submit an 
agreement for voluntary services with the Forest Service to 
perform those maintenance activities that they were concerned 
about?
    Mr. Davenport. We have, Mr. Chairman. We were approached. 
And by the way, we do trail maintenance on a regular basis for 
other trails. And this one we added, and we have signed the 
agreement to maintain one of the trails in the Raccoon Branch 
area.
    Now, there are other maintenance agreements that the Emery 
and Henry Outing Club has signed, and the Horseback Riders 
Association have signed, to maintain the horse trails that the 
Forest Service was concerned about. The Mount Rogers 
Appalachian Trail Club has endorsed the bill; they would be the 
maintainers of a major segment of the Appalachian Trail in the 
area.
    Mr. Grijalva. And, Mr. Davenport, quickly--I am going past 
my time. But the gentleman on the panel, Mr. Henson, also made 
the charge that in the past, public lands rob rural 
communities.
    In your testimony you spoke of the dependency on the 
National Forests and natural resources for the economy of the 
community. Could you just add a little more to that part of the 
testimony?
    Mr. Davenport. There is, in our community, just outside of 
town, one light industrial organization, a factory. There is a 
general-purpose grocery store. Actually, that grocery store 
only came to town recently, largely the result of the economic 
revitalization in the town.
    The rest of the businesses, all of the businesses in the 
town depend upon tourism. For our business, 95 percent of our 
customers or clients come from outside the area. Places like 
Michigan, Ohio, Indiana, Florida; those are some of the major 
areas that they are coming from. So these are people bringing 
in what I call new money to the area, and it is what drives our 
business and what drives our town.
    Mr. Grijalva. Thank you very much. Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman. Mr. Henson, you 
expressed some concerns with the forest planning 
recommendations for wilderness study areas. Do you have other 
specifics that you could highlight that would be examples of 
some of the problems if this was the designation?
    Mr. Henson. Well, I know the Department mentioned several 
problems that they had with some of the areas, as far as them 
meeting the criteria.
    In our assessment, for instance, the Stone Mountain area is 
completely surrounded by private lands. There is two roads, 
trails, running through it that are multiple-use trails and 
roads that would have to be closed down or changed 
dramatically.
    Also, the Mountain Lake additions, that includes a large, 
private inholding in that area. There is also a need in that 
area for prescribed fire on a regular basis just to maintain an 
ecosystem there. I think it is the Table Mountain Pine 
ecosystem that they want to try to continue there.
    In the Shawvers Run additions, there is a need in there to 
do thinning treatments having to do with Indiana Bat. I think 
there is an Indiana Bat area there that they have recognized to 
not be a very good area for helping out the endangered Indiana 
Bat. And in order to do that, they need to do management 
prescriptions, such as thinning, in those areas, just for 
example.
    Mr. Bishop. And from what I am taking, is what you are 
saying is there is a great many of these areas that the Forest 
Service land can be managed to protect the integrity of the 
forest itself. But as a wilderness designation, all those 
protections, all those abilities to manage would be gone, one 
of which obviously is, we have talked about already, is fire 
suppression. And in a wilderness area, the Forest Service 
cannot reduce the fuel loads, nor can they maintain any kind of 
machinery for any kind of fire bricks whatsoever.
    All of these, I think what you are saying is, then, would 
threaten the actual integrity of the forest if it was changed 
in its designation.
    Mr. Henson. In our view, that is correct. We have a very 
well-developed science as having to do with natural resource 
management, and you know, we know that we can improve a lot of 
those resources out there. You know, we can manage for the 
wildlife, we can manage for endangered and threatened species.
    But in order to do those things, you have to have access, 
and you have to be able to do those things and not have those 
high restrictions that you get with designated wilderness. And 
in this case, highly restricted national scenic areas.
    Mr. Bishop. Mr. Muffo, since this proposed boundary is 
abutting certain private subdivisions in the Blacksburg area, 
would you be in favor or willing to change those designations 
of those areas that abut it for the public safety factor that 
would be involved?
    Mr. Muffo. Actually, it is my understanding that it doesn't 
actually abut; that there is an area that is actually 
maintained that is for service area, that it doesn't actually 
abut. Is that correct? Yes, that is my understanding.
    That there actually is a maintained area, and that the--
again, it goes up the mountain. There is a road, there is a 
maintained area, and then there is the developed area.
    Mr. Bishop. OK. Once you get wilderness, there won't be, so 
that is nice.
    How many men actually serve on the Board of Supervisors?
    Mr. Muffo. There are five men and two women.
    Mr. Bishop. OK, I used men generically. So it is a board of 
seven.
    [Laughter.]
    Mr. Bishop. OK. What was the vote in support of this 
recommendation?
    Mr. Muffo. The original vote was four to three. And there 
has been a change of two members since then.
    Mr. Bishop. And the Forest Service still took your 
recommendation, and did not recommend it as part of their 
analysis, is that right?
    Mr. Muffo. Correct.
    Mr. Bishop. OK. Is there any private property in this 
proposed expansion area?
    Mr. Muffo. No.
    Mr. Bishop. Community, civic property?
    Mr. Muffo. No.
    Mr. Bishop. So everything is Forest Service land?
    Mr. Muffo. I believe that is correct, yes.
    Mr. Bishop. Mr. Davenport, what percent of your business 
deals with mountain biking?
    Mr. Davenport. We have no mountain bike business.
    Mr. Bishop. OK. Then you will be OK with this, because 
mountain bikes can't go to a wilderness area.
    Mr. Davenport. We have worked, Mr. Bishop, we have worked 
with mountain bikers on these proposals. And we have changed 
some of our desires to have wilderness and other areas to 
accommodate mountain bikers.
    Mr. Bishop. Well, that is nice, but you still can't have 
mountain biking in a wilderness area.
    And I guess the last concern, Mr. Muffo--Mr. Davenport, the 
mic is by you if you want to do it anyway--if all this is 
Forest Service land anyway and you have access to it, how are 
you actually going to increase the access for a citizen by 
changing it to a designation of wilderness? Will more people be 
able to get on the land and enjoy this experience if it is 
wilderness, as opposed to Forest Service?
    Mr. Muffo. We think we can attract more people.
    Mr. Bishop. Will more people be able to get on the land if 
it is wilderness, as opposed to Forest Service?
    Mr. Muffo. I don't think there will be any fewer. We think 
we can attract more people because it will be, it will be 
identified as wilderness.
    Mr. Bishop. There is a part of me, Mr. Chairman--I am 
sorry, I am over here, and I will be done right now. That is 
OK.
    There is a part of me that would like all of you to have as 
much wilderness as you want to. I would like everyone in the 
East to have the same wonderful experience with wilderness 
designation that those of us in the West have, even though, Mr. 
Gray, not all horses are welcomed in wilderness areas. It 
depends on the area at the time.
    But at the same time, if the idea is simply to allow people 
to enjoy it, you are getting the same kind of enjoyment, the 
same kind of factor with the Forest Service as you would with 
wilderness. If indeed it is simply a marketing idea, you could 
probably get more creative marketing people within your county.
    I appreciate you being here. I appreciate what you are 
doing here. I appreciate you presenting some issues as to the 
legal definition of wilderness in the 1964 Wilderness Act that 
have some restrictions that we should look at. I appreciate 
your emphasis and interest in this particular bill. I 
appreciate you taking the time to come all the way up here and 
testifying in front of us. Thank you for your time.
    Mr. Grijalva. Thank you, Mr. Bishop. And let me thank the 
panel for your thoughtful testimony. And as I said earlier, 
your entire testimony will be made part of the record.
    And let me call the next panel up.
    [Pause.]
    Mr. Grijalva. Welcome. Thank you very much. And let me 
begin with Mr. Dobbins.

  STATEMENT OF BILL DOBBINS, CEO AND MANAGER, DOUGLAS COUNTY, 
WASHINGTON, PUBLIC UTILITY DISTRICT, EAST WENATCHEE, WASHINGTON

    Mr. Dobbins. Thank you. I have been coveting this water all 
day.
    Mr. Grijalva. Enjoy.
    Mr. Dobbins. Well, thank you for the opportunity to testify 
on H.R. 523 today.
    Good afternoon. My name is Bill Dobbins. I am the General 
Manager of Douglas County PUD. My bosses are three elected 
commissioners who make their decisions in weekly open public 
meetings.
    This bill is important to us because of our desire to 
manage and protect Wells Project lands consistently. We own and 
operate the Wells Hydroelectric Project on the Columbia River 
in the center of Washington State.
    Wells has the best juvenile fish passage on the Columbia. 
Operation of Wells is subject to an aquatic habitat 
conservation plan with a no-net impact standard. It was 
developed according to the Endangered Species Act.
    Power from Wells flows to six utilities and the Colville 
Confederated Tribes.
    The Wells Reservoir has 93 miles of shoreline. Douglas PUD 
owns 89 of those 93 miles in fee title. The Douglas PUD land 
use policy has these goals: Sustain the existing natural 
ecosystem, develop recreation facilities that will not 
interfere with the natural ecosystem, protect historic, 
cultural and archaeological sites, and allow public access. No 
substantive issues about how this land will be managed have 
been raised.
    Since the original license was issued in 1962, except for 
the BLM land, Douglas maintained fee title ownership of a 
buffer around the reservoir. Encroachments began to appear on 
district land in the early nineties, as civilization expanded.
    Inspections of shorelands were increased at that time to 
bi-weekly, and a resurvey of the project boundary was begun, so 
that we could prevent further encroachment. As a result of the 
resurvey, Douglas has purchased additional land where erosion 
has occurred or where original survey errors were discovered.
    Since it owns the vast majority of the shorelands, Douglas 
desires to manage and protect all of the lands consistently. 
This is the reason we began working with BLM in 1998 to acquire 
BLM parcels scattered around the reservoir.
    Most of the tracts are partially underwater, and include 
very steep hillsides. One triangular piece is completely 
underwater. Several have no road access. It took from 1998 to 
2005 to complete a land exchange for two of the originally 
identified parcels. At this rate it would take an unreasonable 
amount of time and Agency staff effort to complete the transfer 
for the remaining 11 parcels. BLM recommended Congressional 
authorization as a more reasonable approach.
    Douglas PUD will pay fair market value, plus BLM's 
transaction costs. The land will remain in government 
ownership, and will be open to the public for its enjoyment.
    The BLM raised a concern about bald eagle habitat on one of 
the tracts. To comply with ESA, Douglas is required to protect 
eagle habitat on land it owns, just as it has on two adjacent 
parcels, one since 1964 and the other since 1991.
    We consider action by the U.S. Congress to be an open 
process. This is the second hearing on this bill. Also, for the 
transfer of the two parcels I just mentioned that was completed 
in 2005, there were no comments received through the NEPA 
process.
    The BLM has been involved in a Wells relicensing process 
that is currently underway for two and a half years, starting 
August 2005; most recently, on Tuesday of this week. I 
understand this is different than the BLM representative stated 
earlier.
    The BLM has not raised any issues in the public relicensing 
process. Deadlines have passed. We certainly would not expect 
it, but if BLM recommended mandatory conditions on the license 
without first raising the issues in the public process, the 
result would not be open and transparent. The public has no 
opportunity to comment on mandatory conditions.
    Now, a FERC license is not a static document. It is 
adaptive. The current Wells license has been amended several 
times over its 45-year life, for land, fish, and operational 
reasons. The Douglas PUD will protect these lands, pursuant to 
the Wells Project FERC license, the Federal Power Act, the 
Endangered Species Act, the Wells Project Habitat Conservation 
Plan, the Land Use Policy, and all other applicable laws.
    We believe this transaction is in the best interests of the 
public, and urge your support of H.R. 523. Thank you very much.
    [The prepared statement of Mr. Dobbins follows:]

           Statement of William C. Dobbins, General Manager, 
      Public Utility District No. 1 of Douglas County, Washington

Introduction:
    Douglas County PUD appreciates the opportunity to provide testimony 
on H.R. 523. My name is Bill Dobbins. I have worked for Douglas County 
PUD since 1987 and have served as General Manager since 1996. In my 
time at Douglas County PUD I have been involved in numerous resource 
activities including development of the Wells Project Habitat 
Conservation Plan (HCP) and the Colville Tribes Land Settlement.
    Douglas County PUD is a small electric utility serving 
approximately 17,500 electric customers in rural Douglas County located 
near the center of Washington State. Douglas County PUD is governed by 
a three-member board of locally elected Commissioners who serve in 
their non-partisan positions for six-year terms.
    The Wells Hydroelectric Project is owned and operated by Douglas 
County PUD. The Wells Project has an installed nameplate capacity of 
774.3 megawatts with a maximum generating capability of 840 megawatts. 
This hydroelectric generating project on the Columbia River is a 
hydrocombine structure that lends itself to the most efficient juvenile 
fish passage on the mainstem Columbia River. The Wells Project license 
expires in 2012. Douglas County PUD formally began the relicensing 
process under the Integrated Licensing Process (ILP) by filing its 
Preliminary Application Document (PAD) with the FERC on December 1, 
2006. Prior to filing the PAD, Douglas County PUD engaged in a rigorous 
two-year outreach process with the local towns and counties, the state 
and federal resource agencies and the local Indian tribes.
    H.R. 523 will authorize the Bureau of Land Management (BLM) to 
sell, at fair market value plus transaction costs, specified lands 
associated with the Wells Hydroelectric Project and amounting to an 
approximate total of 622 acres, consisting of 10 small tracts that 
should be part of the Wells Project and one larger adjacent parcel that 
was added by the BLM (Exhibit 1, BLM map). Most of the property is 
partially under water and includes extremely steep hillside (Exhibit 2, 
Typical Tract). One parcel is completely submerged (Exhibit 3, 
Submerged Tract). This sale will result in nearly all of the shore 
lands associated with the Wells Hydroelectric Project being owned and 
protected by Douglas County PUD with the proceeds from the sale being 
used by the BLM to directly meet its goals related to consolidation of 
its holdings. We thank the committee for its support of this bill last 
year and urge your support of H.R. 523.
    This testimony has three purposes:
    1.  To describe Douglas County PUD's intentions with regard to 
management of these lands and to tell you why it is in the public 
interest.
    2.  To address concerns.
    3.  To urge your support for H.R. 523.
Reservoir Land Management:
    From the beginning of the Wells Project in the early 1960's, 
Douglas County PUD made the decision to own as much of the land 
surrounding the Wells Reservoir as was needed to provide a buffer 
between the reservoir and other landowners. This decision was made 
because it was the best way for Douglas County PUD to protect against 
erosion onto private lands, to allow public access to the reservoir 
shore lands and to protect wildlife habitat on those lands. Many
    In the early 1990's encroachments on Douglas County PUD land were 
discovered. This discovery initiated an involved process of resurveying 
the entire Wells Project reservoir. The goal of the resurvey project 
was to correct any property ownership discrepancies, purchase 
additional property in areas where erosion had occurred, eliminate any 
encroachments and prevent future encroachments. Douglas County PUD also 
began bi-weekly patrols of the reservoir to detect any sign of 
encroachment or habitat degradation.
    In 1993, Douglas County PUD adopted a Land Use Policy for all 
Douglas County PUD owned lands and land rights. This policy provides 
guidance for land use management decisions, with the following goals:
    <bullet>  sustaining the existing natural ecosystems,
    <bullet>  developing only those recreation facilities that will not 
interfere with the preservation of natural ecosystems,
    <bullet>  protecting historic, cultural and archeologically 
significant sites, and
    <bullet>  allowing public access, where practicable, to waters and 
lands of the Wells Project.
    The Wells Project FERC license allows Douglas County PUD to issue 
permits for use of project land consistent with the Federal Power Act 
and the Douglas County PUD's Land Use Policy. Permits are only 
considered after the applicant has received approval for all other 
required permits (e.g. Hydraulic Permit, Shoreline Development Permit, 
Corps of Engineers 404 Permit, 401 Water Quality Certification, Section 
10, etc).
    The Wells Project Habitat Conservation Plan (HCP), approved by the 
Federal Energy Regulatory Commission June 21, 2004, requires that when 
making land use or related permit decisions on Douglas County PUD owned 
lands that affect reservoir habitat, Douglas County PUD shall consider 
the cumulative impact effects in order to meet the conservation 
objectives of the HCP, the requirements of the FERC license and other 
applicable laws and regulations. Douglas County PUD is required to 
notify and consider comments from the signatories to the HCP regarding 
any land use permit application. The signatories include the National 
Marine Fisheries Service, the U.S. Fish and Wildlife Service, the 
Washington Department of Fish and Wildlife, the Confederated Tribes of 
the Colville Reservation and the Yakama Indian Nation.
    In the course of the resurvey project, Douglas County PUD 
discovered some parcels of land, including the BLM land, which it 
needed to purchase to restore the appropriate buffer between the 
reservoir and private property. In the case of the privately held 
parcels, Douglas County PUD purchased only enough land to re-establish 
the buffer. Larger parcels were divided to accomplish this purpose, 
that is, to acquire the strip of land along the reservoir that, from an 
engineering standpoint, was needed as a buffer. The BLM indicated no 
willingness to divide the parcels that it owned. The BLM indicated that 
the only way it could transfer the land was if Douglas PUD would get 
involved in a three-way land exchange. One such land exchange was 
completed. It was difficult and time consuming. Douglas County PUD 
started working with BLM on this issue in 1998 and acquired two parcels 
through this exchange in 2005. It became apparent that it would take 
many years to accomplish the goal of managing all of the land around 
the reservoir in a consistent fashion. BLM staff suggested that the 
most efficient way to transfer the land was if the Congress directly 
authorized BLM to sell it to Douglas County PUD. This was the reason 
that our Congressman, Doc Hastings, introduced H.R. 4789, which was 
passed by the House of Representatives last year. Time ran out for the 
bill to be considered by the Senate. H.R. 523 is the same as the bill 
approved last year.
    After Douglas County PUD purchases this land from the BLM, two 
segments that are currently state highway will be divided out and 
dedicated to the State of Washington for that purpose. The balance will 
be managed in conformance with Douglas County PUD's Land Use Policy and 
the Wells Project FERC license, which will result in that land being 
maintained in its natural state and monitored on a regular basis. The 
land will be open to the public.
    This is a simple transfer of public land from one government agency 
to another. The resource goals of the two agencies are uniquely 
similar. The new owner, Douglas County PUD, simply has a more focused 
interest in these lands that are scattered and small in terms of the 
BLM's holdings. They would be contiguous with the other Wells Project 
lands and would be more actively managed as a result.
Eagle Habitat and Public Access Concern:
    In its testimony given on March 9, 2006 before the House Resources 
Committee on H.R. 4789, the BLM provided the following statement:
        We encourage the sponsor and the Committee to provide 
        safeguards to protect the known resource values on these lands, 
        which include Bald Eagle roosts and approximately two miles of 
        Columbia River shoreline currently open to the public.
    This language implies that there are known Bald Eagle roosts 
located on all of the parcels to be conveyed under the bill. In fact, 
only one of the parcels identified on the BLM exhibit map may have a 
potential for an Eagle roost (Exhibit 4). It should be noted that if 
Bald Eagle roosts were discovered or established on any lands purchased 
by Douglas County PUD under H.R. 523, they would also be managed for 
the sole purpose of protecting and securing any such roosts. Douglas 
County PUD policies, the Federal Power Act and the Endangered Species 
Act require that Eagle roosts be protected. As shown on Exhibit 4, 
Douglas County PUD owns a parcel of land (acquired in 1964) immediately 
adjacent to the property to be acquired from BLM and another slightly 
upstream. The upstream Douglas County PUD parcel is the site of a Bald 
Eagle roosting area, which is already protected by Douglas County PUD. 
That parcel was part of a larger parcel acquired in 1991 primarily for 
development of an electric substation site. The area utilized by eagles 
was subdivided from the substation property for the sole purpose of 
protecting and securing the roost, and is successfully managed for that 
purpose. This is representative of Douglas County PUD's typical 
approach to wildlife resource issues.
    The BLM testimony language set forth above mentions the need to 
maintain public access to two miles of Columbia River shoreline. 
Nothing in the legislation would change or alter Douglas County PUD's 
public access policies, areas or opportunities. As a public agency and 
as a FERC license requirement, Douglas County PUD makes every effort to 
maximize public access to the Wells Project shoreline and reservoir, 
particularly for water-related recreation activities.
Recently Discovered Concerns:
    Only last week, in preparing for this hearing, Douglas County PUD 
became aware of concerns that had been raised regarding H.R. 523. While 
it was difficult to discover the source of the concerns since 
correspondence was not copied to Douglas County PUD, we believe it is 
appropriate to respond to a letter dated March 16, 2007 and sent to the 
Committee by Ms. Kate Miller of Trout Unlimited. We appreciate that Ms. 
Miller was willing to provide a copy of her letter to us on May 4, 
2007.
    The letter states that the bill ``appears to be a highly 
transparent effort to sell off BLM land to avoid use of the agency's 
authority to require environmental protections for these lands.''
    Douglas County PUD is not pursuing this land acquisition to avoid 
the authority of the BLM to impose conditions on the new Wells Project 
license under Section 4(e) of the Federal Power Act. As stated in the 
Wells Project PAD filed on December 1, 2006, ``The shoreline of the 
Wells Reservoir is approximately 93 miles long. Douglas County PUD owns 
approximately 89 miles of shoreline in fee title''. In addition to the 
Wells Reservoir, Douglas County PUD owns over 2,140 acres of land 
within the Wells Project Boundary. Lands within the Wells Project 
Boundary include shrub steppe, irrigated agriculture, wildlife habitat, 
such as the Wells Wildlife Area (WWA) and recreation lands, including 
parks in Pateros, Brewster and Bridgeport.'' The BLM parcels account 
for approximately 3.5 miles of shoreline, or about 3.7 percent of the 
total Wells Project shoreline.
    If the BLM had significant concerns about the impact of the Wells 
project on the subject parcels or other lands in the vicinity of the 
Wells Project, the proper place to raise those concerns would be in the 
current process for relicensing the Project. In August 2005, Douglas 
County PUD initiated a series of activities and public meetings in 
preparation for the relicensing of the Wells Hydroelectric Project. 
Douglas County PUD identified the BLM as a key stakeholder in the 
relicensing process and has encouraged BLM's participation in the 
relicensing process from the outset. The BLM received the Information 
Request Letter sent on August 8, 2005. The BLM was present at Douglas 
County PUD's Integrated Licensing Process Workshop on October 18, 2005 
and volunteered to participate in the Cultural, Terrestrial and 
Recreation resource work groups. The Consultation Record indicates that 
the BLM's Rich Bailey, Jim Fisher and Sally Sovey have been on the 
resource work group distribution lists.
    The resource work group process included 34 separate meetings over 
the course of two years to address Cultural, Terrestrial, Recreation 
and Aquatic issues associated with the Wells Project. Over 150 issues 
or concerns were addressed throughout the course of these meetings. The 
BLM received meeting announcements, agendas, meeting notes and work 
group documents by email. The BLM's Rich Bailey and Ann Boyd 
participated by phone in one of the resource work group meetings. The 
resource work groups mutually developed 12 agreed upon study plans, 
which were included in Douglas County PUD's PAD.
    In addition to the resource work group meetings, Douglas County PUD 
conducted 31 separate voluntary stakeholder outreach meetings, 
including meetings with the BLM on September 29, 2005, October 25, 2006 
and November 29, 2006. Also included in the FERC relicensing process is 
the opportunity for stakeholders to submit comments on the Pre-
Application Document and FERC's Scoping Document and for stakeholders 
to submit additional study requests. The first comment period has 
concluded, and BLM has not requested any additional studies or 
modifications to the agreed upon study plans or raised any issues 
related to the PAD or FERC's Scoping Document. Based upon this process, 
Douglas County PUD believes that it has a positive working relationship 
with the BLM and that its concerns are being adequately addressed.
    The Trout Unlimited letter also states that this legislation will 
create a loss of ``public resource without public input.'' In fact, 
there will be no loss of public resource; rather, there should be a 
resulting increase. The parcels in question would only change to 
another public holder, the Douglas County PUD, and the funds received 
by the BLM can be put to use to expand its holdings in areas that would 
be consistent with its long-term goals. Regarding public input, the 
Douglas County PUD Commission meets locally in open session every 
Monday, the FERC relicensing process offers substantial and open public 
input opportunities, and, during the National Environmental Policy Act 
(NEPA) process conducted during the initial BLM/PUD land exchange in 
2005, there were no comments submitted.
    Finally, the Trout Unlimited letter states that the change in 
ownership threatens to impact listed salmonids present in the project 
area and raises concerns under NEPA and compliance with the ESA. This 
concern is not valid. This land constitutes less than four percent of 
the reservoir shoreline. The best way to benefit the fisheries resource 
is to include the BLM property with the balance of the shoreline that 
is already owned and managed to meet project objectives by Douglas 
County PUD. The fisheries resources in the Wells Project area enjoy the 
``no-net-impact'' standard incorporated in the Wells Project HCP. The 
HCP has been made a part of the Wells License. The Wells HCP sets the 
standard for protection of the salmon and steelhead passing the Wells 
Project.
    The relicensing process for the Project is rigorous and includes 
NEPA compliance. Trout Unlimited and the Hydro Reform Coalition did 
receive a copy of the Wells Project PAD and are aware of the timelines 
associated with the FERC Integrated Licensing Process. Trout Unlimited 
and the Hydro Reform Coalition did not file any comments on the Wells 
Project PAD or the FERC scoping document on the Wells PAD in the 
allotted time. Likewise, these two entities did not file any study 
requests in the prescribed time.
Summary:
    Douglas County PUD desires to own and uniformly manage the lands 
surrounding the Wells Project Reservoir. The BLM is willing to sell the 
necessary lands to complete Douglas County PUD ownership. Douglas 
County PUD is willing to pay fair market value plus transaction costs 
to acquire the lands. The BLM can use the proceeds of the sale to 
expand its holdings or otherwise pursue its land management goals. The 
lands will be adequately protected by Douglas County PUD pursuant to 
the Wells Project FERC license and associated licensing process, the 
Federal Power Act, the Endangered Species Act, the Wells Project HCP 
and the Douglas County PUD Land Use Policy and all other applicable 
laws. We believe this transaction is in the best interests of the 
public and urge your support of H.R. 523.

[GRAPHIC] [TIFF OMITTED] T5305.001

[GRAPHIC] [TIFF OMITTED] T5305.002

[GRAPHIC] [TIFF OMITTED] T5305.003

[GRAPHIC] [TIFF OMITTED] T5305.004

                                 
    Mr. Grijalva. Thank you, sir. Mr. Seebach.

STATEMENT OF JOHN SEEBACH, HYDROPOWER REFORM COALITION NATIONAL 
         COORDINATOR, AMERICAN RIVERS, WASHINGTON, D.C.

    Mr. Seebach. Mr. Chairman, Mr. Ranking Member, and Members 
of the Subcommittee, thank you for inviting me to testify at 
this hearing today.
    My name is John Seebach, and I am the National Coordinator 
of the Hydropower Reform Coalition, which is a group of more 
than 140 conservation and recreation organizations that are 
dedicated to protecting and restoring rivers impacted by 
hydropower dams.
    I am speaking today on behalf of American Rivers, which is 
the coalition's chair. American Rivers' hydropower staff has 
spent countless hours over the past 30 years collaborating with 
utilities, Federal and state agencies, American-Indian tribes, 
and many others to advocate for the protection of rivers, 
public trust resources, and the public's right to participate 
in decisions on how these resources will be managed.
    American Rivers opposes H.R. 523. By directing Interior to 
sell more than 600 acres of public land, this bill would 
circumvent three bedrock laws that are in place to protect the 
public trust: the Federal Land Policy and Management Act, the 
Federal Power Act, and, indirectly by extension, the National 
Environmental Policy Act.
    It would also affect the ongoing relicensing of the Wells 
Hydroelectric Project by removing existing Federal authorities 
that are intended to protect public lands on which the project 
is located.
    There are two important principles at stake here. First, we 
believe that Federal land transfers should be conducted through 
an open public process. The decision to sell this land is a 
serious one. The district does not have the same conservation 
mandate as the BLM, and this bill would do nothing to ensure 
that the land will remain in public hands or be managed for 
conservation in the future.
    None of the land covered by this bill has been identified 
as suitable for disposal in the Spokane Resource Management 
Plan. In other words, without this bill, the BLM would need to 
amend the Resource Management Plan in order to sell this land, 
a procedure that would necessitate public notice and comment, 
and would likely trigger full NEPA review, as well.
    To our knowledge, there has been no such review, and this 
bill would deny the public an opportunity to participate in 
that decision.
    Laws like the Federal Land Policy Management Act and NEPA 
bring careful analysis, and an open, deliberative process, to 
important decisions like these, so that we can know that we are 
making the right decisions. We should give those processes a 
chance to work, not bypass them.
    Second, we feel that Congress should avoid legislating the 
outcome of individual hydropower licensing proceedings. This 
bill would effectively preempt the BLM's authority to protect 
public lands affected by the Wells Hydropower Project by giving 
those lands to the operator--excuse me, by selling those lands 
to the operator of the project.
    The 50-year license for the Wells Project, which was issued 
by the Federal Energy Regulatory Commission, is set to expire 
in 2012. And the District has begun the process of seeking a 
new license.
    A hydropower relicensing almost always results in public 
benefits that go beyond power production, like protected fish 
and wildlife habitat, improved water quality, and enhanced 
opportunities for public recreation. This is especially true 
for projects like this one, which were originally licensed 
before Congress passed our modern environmental laws. Although 
I certainly don't mean to discount their stewardship of the 
land.
    The Federal Power Act gives Interior the ability to place 
conditions on hydropower licenses that it deems necessary to 
protect its Federal reservations, and the public's use of those 
reservations, from any adverse impacts caused by a 
hydroelectric project, so long as the reservation falls within 
the project boundary. These conditions typically protect things 
like water quality, recreation and public access, fire 
prevention, vegetation, and wildlife. This bill would remove 
these protections by directing Interior to give up its 
authority over those lands.
    All of the lands referred to in this bill are affected by 
the project. One tract was inundated by the reservoir, one 
tract has transmission lines running through it, and the 
remaining tracts are on the banks or near the banks of the 
river and the reservoir.
    It is still too early in the relicensing process to know if 
the BLM would find it necessary to require such conditions. The 
study phase of the relicensing has barely begun, and that is 
the point. It would be much better if the issue of how this 
land is managed, and by whom, was addressed by stakeholders 
during the hydropower relicensing, which is a very open public 
process.
    Making this decision before the process has gotten started 
would, in our view, be premature, and could prejudice the 
outcome.
    Finally, directing the BLM to sell public lands during an 
ongoing hydropower licensing would set a dangerous precedent 
that sends a clear message to other hydropower operators. If 
you want to avoid the cost of license requirements designed to 
protect the environment from your project, then you need only 
go to Congress and ask you to tell the Agency to sell you the 
land.
    Now, even if that is not the intention here--and I believe 
Mr. Dobbins when he tells me that it is not; we have spoken 
about this, and had a good conversation--the result would still 
be the same, which is a loss of Federal authority to protect 
public values during the first opportunity in 50 years that it 
has had to exercise that authority.
    In conclusion, American Rivers opposes H.R. 523 in its 
current form. It would result in a net loss of public land, in 
a net loss of Federal authority to protect public values at an 
existing hydropower project. It would set a damaging precedent 
that could undermine future hydropower licensing proceedings.
    Decisions about the sale of public lands should be made 
through the open, deliberative, and public processes already 
provided by the Federal Land Policy Management Act. We 
recognize that dealing with complex administrative proceedings 
can be frustrating; but it is also important to remember that 
these processes have been put in place to protect the public.
    Thank you very much.
    [The prepared statement of Mr. Seebach follows:]

          Statement of John C. Seebach, National Coordinator, 
                      Hydropower Reform Coalition

    Mr. Chairman and members of the Committee:
    My name is John Seebach, and I am the national coordinator of the 
Hydropower Reform Coalition, a consortium of more than 140 conservation 
and recreation organizations dedicated to protecting and restoring 
rivers impacted by hydropower dams. I am appearing today on behalf of 
American Rivers, which is the Coalition's chair. The views presented in 
this testimony are those of American Rivers, and not necessarily those 
of the entire Coalition. I would like to thank the Committee for 
holding this hearing, and for extending me this opportunity to testify 
on H.R. 523, the Douglas County, Washington, PUD Conveyance Act.
    American Rivers is the national organization that stands up for 
healthy rivers so our communities can thrive. We believe rivers are 
vital to our health, safety and quality of life. We pioneer and deliver 
locally-oriented solutions to protect natural habitats and build 
sustainable communities. We lead national campaigns to raise awareness 
of river issues and mobilize an extensive network that includes more 
than 65,000 members and activists to help safeguard our rivers for 
today and tomorrow.
American Rivers opposes H.R. 523
    H.R. 523 directs the Secretary of the Interior to sell more than 
600 acres of public land managed by the Bureau of Land Management (BLM) 
to the Douglas County Public Utility District (PUD), overriding three 
laws that protect public land and the broader public interest, 
including the National Environmental Policy Act (NEPA), the Federal 
Land Policy and Management Act (FLPMA), and the Federal Power Act 
(FPA). This bill would also affect the ongoing relicensing of the Wells 
hydroelectric project by removing existing federal authorities that are 
intended to protect these lands from the project's impacts. American 
Rivers is opposed to this bill on two basic principles:
    <bullet>  Federal land transfers should be conducted through an 
open public process: This bill would result in a forced sale of public 
land that bypasses the existing legal framework for a land transfer 
process, thwarting public participation, environmental review, and 
competitive bidding requirements. The procedures outlined in the 
Federal Land Policy and Management Act offer the appropriate forum for 
disposing of federal land.
    <bullet>  Congress should generally avoid legislating the outcome 
of individual hydropower licensing proceedings: By removing the land in 
question from federal ownership, the bill would materially affect 
existing federal authorities--and potentially the outcome--of the 
ongoing relicensing of the Wells hydroelectric project. Congress should 
not preempt the BLM's authority to protect lands affected by a 
hydropower project by forcing the sale of those lands to the operator 
of that project.
Federal land transfers should be conducted through an open public 
        process
    By circumventing the land transfer procedures outlined in FLPMA 
and, by extension, environmental review under NEPA, H.R. 523 would 
dispose of public land located on the shores of a stretch of the scenic 
Columbia River without any meaningful review to determine if the 
proposed land transfer would best serve the public interest.
    It is extremely rare for the BLM to sell riverside land. Absent 
this bill, the BLM would not be able to sell the land identified in 
this bill, as none of the land has been identified as suitable for 
disposal in the Spokane Resource Management Plan (RMP). Under existing 
law, the BLM would need to amend its RMP in order to sell this land, a 
procedure that would require, at the minimum, a public notice and 
comment period. Any proposed sale of this land would likely trigger 
NEPA review as well. H.R. 523 would effectively remove both of these 
deliberative processes from the proposed land transfer. There would be 
no opportunity for the public to participate in the decision, submit 
comments, or ask questions about how the land is currently being 
managed and how it might best be managed in the future.
    Under the terms of H.R. 523, the land would simply be sold to the 
PUD without any stipulations regarding its future management or 
additional public discussion of the potential immediate or future 
consequences of the sale. While the bill would transfer the land to 
non-federal public ownership, the Douglas County PUD and the BLM have 
very different missions. There are strict rules that govern how the BLM 
should manage the public lands in its care. The PUD, on the other hand, 
must balance land stewardship against the financial interests of its 
own ratepayers. There would be nothing to prevent the land from being 
sold to private interests after the transfer required in the bill is 
complete.
    American Rivers does not believe that this Committee has enough 
information to determine if the actual land transfer being proposed in 
this bill would result in a net benefit to the public. Instead, we 
support an open, transparent, public review of the facts of this 
particular case: precisely the sort of review that this bill would 
preclude. Laws like NEPA and FLPMA ensure that decisions like these are 
accompanied by careful analysis and an open, deliberative process. 
These formal processes would give other members of the public--who may 
be more familiar with the resource and have a direct interest in how it 
is managed--an opportunity to be heard.
Congress should not legislate the outcome of an individual hydropower 
        licensing proceeding
    While the terms by which H.R. 523 proposes to sell public lands--a 
forced sale to a pre-ordained buyer without the public participation, 
environmental review, or competitive bidding that would ordinarily be 
required by law--are clearly not in the public interest, another aspect 
of the bill is even more troubling. The lands in question are located 
either within or adjacent to the project boundary of the Wells 
hydroelectric project, which is operated by the PUD under the terms of 
a Federal license (P-2149) that will expire in May of 2012. This bill 
would effectively remove the Secretary of Interior's authority to place 
conditions that the Bureau of Land Management (BLM) deems necessary to 
protect these BLM-managed public lands and the public's use of those 
lands from the adverse impacts of the Wells hydroelectric project.
    The Wells hydroelectric project currently operates under a 50-year 
license issued by the Federal Energy Regulatory Commission (FERC; 
previously the Federal Power Commission) in 1962. The PUD has already 
begun the 5-year process of seeking a new license for the project, 
filing a Pre-Application Document with FERC on December 1, 2006. FERC 
has already initiated the NEPA scoping process for this relicensing. 
The relicensing of a hydropower facility almost always results in 
tangible benefits for non-power public values, such as protected fish 
and wildlife habitat, improved water quality, and enhanced 
opportunities for public recreation. These improvements can be 
particularly significant at projects like the Wells project, which 
received its original license in an era before the advent of modern 
environmental laws.
    Section 4(e) of the Federal Power Act instructs FERC to give equal 
consideration to environmental and recreational resources as well as 
power resources when issuing a license for a hydroelectric facility. 
The same section of the Federal Power Act also requires FERC to ensure 
that it does not issue licenses that interfere with the purposes of 
federal reservations that overlap the boundaries of hydropower 
projects, including Indian reservations, national forests, and other 
federally reserved lands. The Federal Power Act accomplishes this goal 
by requiring FERC to include in its licenses any conditions that the 
responsible Secretaries deem necessary for the ``adequate protection 
and utilization'' of these reservations.
    The March 2, 2006 map prepared by the Douglas County PUD shows that 
the Wells hydroelectric project overlaps two federal reservations: the 
Colville Indian Reservation on the east, and several tracts of federal 
land that is managed by the BLM. The proposed transfer includes all 
BLM-managed land that overlaps the project boundary of the Wells 
Hydroelectric project. The authority to condition hydropower licenses 
under section 4(e) is limited to reservations that overlap the project 
boundary. By requiring that all BLM-managed land overlapping the 
project be sold to the PUD, H.R. 523 would remove the Secretary of the 
Interior's authority to require license conditions that will protect 
BLM-managed land from any adverse impacts caused by the operation of 
this hydropower project. In so doing, the bill would materially affect 
existing federal authorities during an ongoing federal licensing 
proceeding.
    All of the lands in question are clearly affected by the project: 
one tract is inundated by the reservoir, one tract has transmission 
lines running through it, and the remaining tracts are on the banks of 
the river and reservoir. Section 4(e) conditions typically include 
provisions designed to protect water quality, recreation and public 
access, fire prevention, vegetation, and wildlife. It is still too 
early in the relicensing process for the BLM to determine if section 
4(e) conditions would be necessary to protect these reservations, but 
information from the study phase of the relicensing or other relevant 
public input could lead the Secretary to determine that such conditions 
would be necessary. Congress should not preempt this authority by 
forcing the BLM to sell the land during the pending relicensing 
process.
    Directing the BLM to sell public lands during an ongoing hydropower 
would set a dangerous precedent. The message to hydropower operators 
would be clear: if you wish to avoid license requirements designed to 
protect the environment from your hydropower project--and the costs 
associated with meeting these responsibilities--ask Congress to sell 
you the land. Whether or not that is the intention behind this 
particular bill, the result would be the same: a loss of federal 
authority to protect public values during the first opportunity in 
fifty years to exercise that authority.
    In addition to our substantive concerns outlined above, we note 
that there is no real urgency behind this proposal. We have not yet 
been presented with any compelling reason why this land should be sold 
while the Wells project relicensing proceeding is still pending. A FERC 
hydropower licensing process involves NEPA review, and offers an 
excellent opportunity for public participation and collaborative 
discussions among all stakeholders. Licensing often results in broad 
agreements about how project-related land should be managed. As it 
earns its new FERC license, the PUD could win broad stakeholder 
approval for some sort of land transfer. In the past American Rivers 
has supported land exchange legislation, such as the Tapoco Project 
Licensing Act of 2004, that resulted from comprehensive settlement 
agreements. While we remain opposed to this bill, we note that this 
hearing has already spurred some positive discussions with the Douglas 
County Public Utility District (PUD), and we hope to continue these 
discussions.
Conclusion
    American Rivers strongly opposes H.R. 523 in its current form. It 
would result in a net loss of public land and a net loss of federal 
authority to protect public values at an existing hydropower project. 
It would set a damaging precedent that could undermine future 
hydropower licensing proceedings. Decisions about the sale of public 
land should be made through the open, deliberative, and public 
processes already provided by FLPMA and NEPA. We recognize that dealing 
with complex administrative processes can be frustrating, but it is 
also important to remember that these processes have been put in place 
to protect the public.
                                 ______
                                 
    Mr. Grijalva. Thank you, and thank the panelists.
    Let me turn to the Ranking Member, Mr. Bishop, if he has 
any comments. I know he has a pressing appointment. Any 
comments or questions?
    Mr. Bishop. No. I just thank both gentlemen for being here. 
I appreciate your testimony. It will be included, and I thank 
you for that.
    I yield.
    Mr. Grijalva. Thank you. Let me, just some general 
questions. Mr. Dobbins, can you identify the specific advantage 
for the public utility district of owning these BLM parcels? 
What would be the, what is the advantage of that?
    Mr. Dobbins. The advantage is that when we are out in the 
field, if we own all the lands around the reservoir, and we 
notice things on those lands, we don't have to go back and 
check are these ours or someone else's. We want to be able to 
manage and protect all of those lands consistently around the 
reservoir.
    Mr. Grijalva. And let me just follow up. In the licensing 
process, is there something specific that requires or mandates 
that the district own all the land in the project boundary?
    Mr. Dobbins. No. Ours is the most conservative approach 
that you could take. We are trying to protect those lands and 
ownership of them as the most conservative approach to that.
    Mr. Grijalva. So there is no mandate to own.
    Mr. Dobbins. No.
    Mr. Grijalva. Is there any, in the current license, is 
there any resource protection requirements in the current 
license that you work with right now?
    Mr. Dobbins. Oh, yes. It is substantial. We are allowed to 
give permits for private use of the land to adjacent 
landowners, but the hurdles are very steep as far as permitting 
that. We have to go through all the state and Federal resource 
agencies before we can even consider issuing a permit. And then 
actually, the Habitat Conservation Plan steepened that terrain, 
and caused us to have to do more review before we can actually 
offer that.
    But our leaning is toward protecting the wildlife habitat 
naturally. Our own policies state that.
    Mr. Grijalva. And those requirements are with the specific 
license that you hold now.
    Mr. Dobbins. Yes.
    Mr. Grijalva. OK. Let me just, one question before I turn 
to Mr. Seebach.
    If the legislation in H.R. 523 were enacted, could you 
legally sell the parcels that you are acquiring to other 
buyers? I realize that may not be the intent, to sell them, but 
could you?
    Mr. Dobbins. That depends on how FERC decided to use the, 
you know, what restrictions FERC put on.
    If they are included in the project boundary, then we have 
to clear any sale through FERC.
    Mr. Grijalva. OK. For the sake of clarification, have you, 
in the current project boundary, have you sold, has any land 
been sold?
    Mr. Dobbins. Any--let us see. There have been small 
adjustments for one reason or another, but they all have to go 
through the FERC process. FERC goes through the public process 
of notice and all that.
    Mr. Grijalva. So you can, given whatever----
    Mr. Dobbins. I think that we could, yes.
    Mr. Grijalva. Mr. Seebach, one question. Could you compare, 
if it is possible, the BLM's resource management goals with the 
resource management goals of the public utility district? Are 
they the same?
    And the other part of the question is the fact that the 
utility district has rate payers. Does that impact resource 
management plans?
    Mr. Seebach. I think it could. I am not sure that I can 
accurately assess that in this case. I know that I have spoken 
with Mr. Dobbins, and I believe they take their commitment to 
conservation seriously. But I don't feel like I could 
adequately--I would have to get back to you on that one to 
answer it correctly.
    Mr. Grijalva. OK. Thank you very much, and thank you for 
your patience. I appreciate your testimony. And this meeting is 
adjourned. Thank you.
    [Whereupon, at 1:10 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
